<html>
<title> - THE LOCAL ROLE IN HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-310]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-310
 
                  THE LOCAL ROLE IN HOMELAND SECURITY
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           DECEMBER 11, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs









                     U.S. GOVERNMENT PRINTING OFFICE
78-046                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                        Kathryn Seddon, Counsel
            Michael L. Alexander, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
           William M. Outhier, Minority Investigative Counsel
                     Darla D. Cassell, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     3
    Senator Collins..............................................     4
    Senator Levin................................................    18
    Senator Domenici.............................................    29
    Senator Cleland..............................................    34
Prepared statement:
    Senator Bunning..............................................    57

                               WITNESSES
                       Tuesday, December 11, 2001

Hon. Marc H. Morial, Mayor, City of New Orleans, Louisiana and 
  President, U.S. Conference of Mayors...........................     6
Hon. Javier Gonzales, Commissioner, Santa Fe County, New Mexico 
  and President, National Association of Counties (NACo).........     8
Jay Fisette, Chairman, Arlington County Board, Virginia..........    11
Richard J. Sheirer, Director, Office of Emergency Management, New 
  York City Mayor's Office.......................................    13
John D. White, Jr., Director, Tennessee Emergency Management 
  Agency.........................................................    16
Chief William B. Berger, President, International Association of 
  Chiefs of Police...............................................    36
Michael C. Caldwell, M.D., M.P.H., Commissioner of Health, 
  Dutchess County Department of Health, New York, on behalf of 
  the National Association of County and City Health Officials 
  (NACCHO).......................................................    39
Michael J. Crouse, Chief of Staff for the General President, 
  International Association of Fire Fighters (IAFF)..............    42
Major General Joseph E. Tinkham, II, Adjutant General of Maine 
  and Commissioner of the Maine Department of Defense, Veterans 
  and Emergency Management.......................................    44

                     Alphabetical List of Witnesses

Berger, Chief William B.:
    Testimony....................................................    36
    Prepared statement with an attachment........................   118
Caldwell, Michael C. M.D., M.P.H.:
    Testimony....................................................    39
    Prepared statement...........................................   129
Crouse, Michael J.:
    Testimony....................................................    42
    Prepared statement...........................................   144
Fisette, Jay:
    Testimony....................................................    11
    Prepared statement...........................................    93
Gonzales, Hon. Javier:
    Testimony....................................................     8
    Prepared statement with an attachment........................    83
Morial, Hon. Marc H.:
    Testimony....................................................     6
    Prepared statement with an attachment........................    58
Sheirer, Richard J.:
    Testimony....................................................    13
    Prepared statement...........................................    96
Tinkham, Major General Joseph E., II:
    Testimony....................................................    44
    Prepared statement...........................................   150
White, John D., Jr.:
    Testimony....................................................    16
    Prepared statement...........................................   109

                                Appendix

Ellen M. Gordon, Administrator/Homeland Security Advisor, Iowa 
  Emergency Management Division, prepared statement..............   155
The National Association of Regional Councils, prepared statement   162
The United Jewish Communities and The Jewish Federations of North 
  America, prepared statement....................................   165








                  THE LOCAL ROLE IN HOMELAND SECURITY

                              ----------                              


                       TUESDAY, DECEMBER 11, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Cleland, Carper, Levin, 
Thompson, Collins, and Domenici.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning to everyone. Thanks for being here and being here a bit 
early. I apologize that Washington traffic made me a few 
minutes late.
    It is a pleasure to welcome everyone to today's hearing on 
the local role in homeland security, which is part of an 
ongoing series of hearings by the Senate Governmental Affairs 
Committee intended to both oversee and, hopefully, improve the 
Federal Government's response to the urgent set of terrorist 
threats our country and our people now face.
    On September 11, as we watched the attacks with horror and 
disbelief, we also, fortunately, were able to watch with 
increasing appreciation and admiration as local and State 
governments rose to this extraordinary occasion to protect and 
serve their people. That response, I think, dramatically 
demonstrated what is true no matter the nature of the emergency 
or the size of the locality. In America's war against 
terrorism, it is city, county, and State governments and their 
workers who will bear the primary responsibility for providing 
our citizens the safety and services that they need.
    The local role, of course, is much deeper and broader than 
emergency response. State, county, and city agencies are the 
primary providers of public health, transportation, and social 
support services, and as the daily law enforcement presence in 
our communities, they play a lead role in helping to prevent 
terrorist acts from happening in the first place.
    After September 11, all of this means that in order to 
fight terrorism effectively, counties, cities, and States need 
not only new technology, training, and talent, they need new 
funding. This morning, the U.S. Conference of Mayors is 
releasing a detailed inventory of the needs it has identified. 
The National Governor's Association and the National 
Association of Counties have recently issued similar reports. 
The governors, in fact, estimate that the cost to our States of 
guarding against threats to the public health and critical 
infrastructure will be approximately $4 billion in the coming 
fiscal year, and county officials have suggested the need for a 
new $3 billion Federal block grant for localities to meet these 
challenges.
    This morning, we want to talk as much about improving 
methods and relationships as about providing money. This 
Committee wants to learn what Federal policies, practices, and 
procedures should be put in place to help States and localities 
do their job better, and in what ways can we, all branches of 
government, work together to meet and defeat the terrorist 
threat. Our goal is to leverage the strengths of each branch 
and level of government so that we are doing everything in our 
power to protect our people against terrorism, and if the 
terrorists do strike again, that we will be able to count on a 
swift, sure, and seamless response.
    From recent events, we have reason to be proud of the role 
that has been played, but also reason to acknowledge that we 
have some way to go in the coordination of government responses 
to terrorism at the various levels. Too often in responding to 
the homeland security threats we have faced so far, the Federal 
and local governments have not worked hand-in-hand but have 
tripped over each other's feet.
    A number of local officials, for instance, have expressed 
great frustration with what they perceive as a lack of 
information sharing by the FBI, although I am pleased to note 
and I will be interested to hear from the local officials today 
that FBI Director Mueller has convened an advisory group of 
State and local law enforcement officials and indicated a 
willingness to speed up security clearances for local officials 
and to establish more joint terrorism task forces.
    Similar gaps and communication breaches were revealed 
during the response to the anthrax attack. The CDC and other 
Federal agencies, including the Office of Homeland Security, 
the Secretary of HHS, and the Post Office seemed to send 
inconsistent, certainly confusing messages to States, counties, 
and cities, and, I might add, even to Members of Congress.
    There was a very interesting article in yesterday's New 
York Times about what we are holding the hearing on this 
morning, and I quote this sentence from it: ``For all the calls 
to vigilance in a domestic defense drive like no other, many 
State and local governments are starting to balk because of the 
costs and the frustration over what they see as the Federal 
Government's confusing stream of intelligence information and 
security alerts.'' Whether or not this feeling remains on the 
front page, the fact is that all levels of our government need 
to get on the same page and to do so without delay.
    The challenge is exacerbated, I think, by the approach to 
counterterrorism that is being taken at the Federal level, an 
approach that I believe would be greatly improved by the 
creation of a full-fledged cabinet-level Department of Homeland 
Security with clear lines of authority and the power to get 
things done.
    Until that happens, the Office of Homeland Security under 
Governor Ridge, as it is constituted now, has the primary 
responsibility, and I certainly hope and believe that Governor 
Ridge, because of his experience at the State level, will act 
in a way that makes clear that he knows that State and local 
governments have to sit as equals at the table of anti-
terrorist planning with the Federal Government. Encouragingly, 
Governor Ridge, in fact, has announced his intention to form a 
State and local government committee to advise the Office of 
Homeland Security, and that, I think, is the first good step.
    I hope we on this Committee across party lines can be 
advocates here in Congress for local government efforts, so 
that from the grassroots to the top of the Federal 
organizational tree, we are all working together to make the 
ground on which Americans live and work as safe and secure as 
possible.
    I will just say a final word in a historical context. Our 
founders understood that the Federal Government would be better 
at some things and that State and local governments, which are 
closer to the people, would be much better at other 
governmental functions. Because this is the first modern war 
that is being fought simultaneously both abroad and on our 
homefront, the war against terrorism really represents in a new 
way the intersection of one traditional national Federal 
responsibility, which is waging war and securing the Nation, 
and one traditional local government responsibility, which is 
providing for the health and safety of our communities. As a 
result, this war on terrorism challenges us to rethink and, if 
necessary, revise some traditional Federal and local 
relationships even while we reaffirm others, with the 
overriding goal of leveraging our strengths to make us a more 
secure society.
    But in any case, on the front lines of that preparedness 
will be the State, county, and local officials, including those 
we are pleased to have with us today. Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman. We 
have held a number of hearings on homeland security and 
bioterrorism and one theme that keeps coming up is the 
importance of local officials in responding to a terrorist 
attack.
    We have been reminded repeatedly throughout our recent 
hearings that local fire fighters, law enforcement officers, 
emergency management officials, public health officials, and 
health care providers will be the first to respond to a 
terrorist attack. Unfortunately, we have also heard that our 
focus at the Federal level has been primarily on programs, some 
of which overlap and are spread over 40 different agencies.
    One of our witnesses at the bioterrorism hearing, Dr. Amy 
Smithson, made an observation in a report that I think bears 
repeating and which reflects what we will be hearing from our 
witnesses today. Dr. Smithson noted that only $315 million of 
the total of the $8.4 billion counterterrorism budget in 2000 
went to the front lines in the form of training, equipment 
grants, and planning assistance. That is a remarkably small 
piece of the pie.
    I am glad that we will have the opportunity today to hear 
from John White, the Director of Emergency Management in 
Tennessee. Mr. White has worked in emergency management for 35 
years and certainly has an excellent perspective on this issue.
    One point that Director White makes in his written 
statement and that I think is very important and insightful is 
that local and State emergency officials have, in effect, been 
preparing for terrorist attacks for years. For example, many 
have expressed concern about the safety of our nuclear plants 
in the wake of the events of September 11. But as Director 
White points out, his office has been conducting exercises to 
prepare for accidents at nuclear plants for years. People are 
now becoming more concerned about chemical attacks, but his 
Emergency Management Agency was conducting training and 
response exercises to deal with hazardous waste material spills 
and accidents well before recent attacks.
    So we have infrastructures in place at the State and local 
levels already, at least somewhat prepared to respond to 
attacks. Perhaps rather than pouring more money into more 
Federal programs and response teams, the first priority should 
be to determine how we can best coordinate and support training 
and exercises with local officials to take advantage of the 
programs that are already in existence.
    As we have heard previously, and I believe that Dr. 
Caldwell will testify today, the same point can be made about 
our public health systems. Clearly, we need to take steps to 
improve the detection, surveillance, and response capabilities 
of our public health departments and our private health care 
providers. We can build on systems already in place and reap 
the additional benefit of strengthening our preparedness in the 
health care arena overall.
    Finally, I believe we will also hear today about the need 
for better communications in the law enforcement area. We have 
all read about some confrontations between the FBI and local 
law enforcement. Both Director Mueller and Attorney General 
Ashcroft have announced efforts to try to facilitate 
communications between local and Federal officials, as well as 
to share more information when necessary. I look forward to 
hearing from our witnesses today on this subject, as well.
    Again, Mr. Chairman, I look forward to our discussion today 
about how best to support our very valuable local resources. 
Thank you.
    Chairman Lieberman. Thanks, Senator Thompson. Senator 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I appreciate your 
convening this hearing and for inviting a witness from Maine, 
Commissioner Joseph Tinkham, to participate.
    Our purpose to examine the local role in homeland security 
is of utmost importance, for one of the lessons of September 11 
is those first on the scene are local officials--police 
officers, fire fighters, EMS and other medical personnel. They 
are the ones who are the first responders.
    We are here today to learn about the efforts of State, 
county, and local officials to prepare for and respond to acts 
of terrorism. We need to assess the effectiveness of 
communication and coordination among Federal, State, and local 
agencies, and also to evaluate the extent of assistance that is 
needed from the Federal Government.
    Critical to the homeland defense of our Nation as a whole 
is the security of individual States, and securing a State 
presents significant financial and logistical challenges. Let 
me illustrate these challenges using my home State of Maine as 
an example.
    As Commissioner Tinkham of Maine's Department of Defense, 
Veterans, and Emergency Management has noted in his written 
testimony, Maine has more than 3,000 miles of coastline. It has 
the longest international border with Canada in the continental 
United States. The State has more than 250 air strips, military 
bases, and two major shipyards, more than 800 dams, a 
deactivated nuclear power plant with spent fuel rods on site, 
and the second largest petroleum tank farm on the East Coast, 
located in the very heart of the State's largest population 
center. According to Commissioner Tinkham, the State of Maine 
has identified 25 vulnerabilities that could result in a large 
loss of life or environmental catastrophe.
    To meet these challenges and those facing other States, we 
must improve coordination among Federal, State, and local 
governments as well as the private sector. We must avoid 
wasteful duplication. We must have realistic plans and conduct 
effective training and exercises. We also must ensure that 
appropriate information about the presence of terrorists and 
potential threats is shared by Federal law enforcement agencies 
with their State and local counterparts.
    Portland, Maine, Police Chief Michael Chibwood has 
expressed many times his frustration at not being told of the 
presence of individuals on the FBI's watch list. As he put it, 
if there is something that impacts the public safety of a 
community, the police chief ought to know.
    Finally, we must have adequate funding for homeland 
defense. While the responsibility for homeland security is not 
the Federal Government's alone and must be shared by local and 
State governments, I fully support additional Federal financial 
assistance for States and communities.
    For example, I recently joined with Senators Frist, 
Kennedy, and several others in introducing the Bioterrorism 
Preparedness Act, which not only strengthens our Federal 
response, but also authorizes substantial new funding for 
States, local governments, and hospitals, the people who are, 
indeed, on the front lines and would be called upon first in 
the event of any new bioterrorist attack. Our legislation 
authorizes $1.5 billion to improve State and local preparedness 
capabilities and also authorizes an additional $60 million to 
improve the public health laboratory network through the 
Centers for Disease Control and Prevention.
    It is important that we allow Governor Ridge the 
opportunity to assess needs and priorities carefully. After 
that assessment, however, I fully expect that the President 
will propose billions of dollars in his next budget, which we 
expect to be released in early February. In that regard, this 
hearing and the testimony of Commissioner Tinkham and the other 
witnesses today will be very helpful in identifying the gaps in 
the system and the priorities for this additional funding.
    Thank you, Mr. Chairman. We clearly have a lot of work to 
do together.
    Chairman Lieberman. Thanks very much, Senator Collins.
    I am delighted with the witnesses we have here this 
morning. It is really a first-rate and very representative 
group and I thank you for being here.
    First is the Hon. Marc Morial, who is here this morning as 
President of the U.S. Conference of Mayors, Mayor of New 
Orleans, obviously, first elected in 1994 at the 
extraordinarily young age of 35, now in his second term, and, 
therefore, still very young. [Laughter.]
    Mayor Morial, thanks for being here. I look forward to your 
testimony.

    TESTIMONY OF HON. MARC H. MORIAL,\1\ MAYOR, CITY OF NEW 
  ORLEANS, LOUISIANA AND PRESIDENT, U.S. CONFERENCE OF MAYORS

    Mr. Morial. Thank you. Good morning. I am Marc Morial, 
Mayor of New Orleans and President of the Conference of Mayors. 
I want to thank Chairman Lieberman as well as Senator Thompson 
and the entire Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morial appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I am also very pleased to be here with fellow local 
leaders, especially our NACo President, Javier Gonzales. Mayors 
have always attached a high priority to preparing our cities 
for the possibility of disasters.
    In the wake of September 11 and the anthrax mailings, 
efforts to strengthen emergency management plans have been 
redoubled and there have been significant additional 
deployments of local public safety resources. As I stated in a 
recent meeting with Governor Ridge, we are the domestic troops, 
and today, I am here representing not only mayors, but police 
officers, fire fighters, public health workers who are on the 
front line on the domestic side of this war against terrorism.
    In October, the Conference of Mayors sponsored an 
unprecedented safety and security summit which brought together 
more than 200 mayors, police chiefs, fire chiefs, emergency 
managers, and public health officials. Today, I am proud to 
release this national action plan which emerged from the summit 
which I want to briefly summarize.
    First, in the area of homeland security, we have been 
concerned, as each of you has mentioned, about the multiplicity 
of Federal agencies which have responsibility for helping 
cities, counties, and States prepare for and respond to a 
possible attack, and we are extremely encouraged by our 
conversations with Governor Ridge, who we think understands the 
importance of intergovernmental partnership and the need for 
better coordination.
    To strengthen his efforts, we strongly endorse the idea 
that the Office of Homeland Security be given cabinet-level 
status, should be fully authorized and given budgetary 
authority over Federal programs related to homeland protection. 
Without this, the Office of Homeland Security will be unable to 
fulfill, we believe, the mission that President Bush has so 
aptly placed under the responsibility of Governor Ridge, and I 
understand that you, Senator Lieberman, have introduced 
legislation on this.
    Second, and this is important, right now, of the 
approximately $10 billion which is in the Federal budget 
related to terrorism, and that has recently been identified by 
OMB--only 4.9 percent is allocated for State and local first 
response activities. And of this limited amount, most is 
provided to States.
    To ensure that heightened security can be maintained and 
that traditional public safety needs do not suffer, we have 
called, and our national action plan includes, a new flexible 
homeland security block grant to be used for additional 
deployment expenses, training, communications, rescue 
equipment, and the protection of public infrastructure. We are 
very pleased that such legislation, S. 1737, was introduced by 
Senator Clinton, along with Senators Feinstein, Mikulski, 
Durbin, and Schumer, to authorize $3 billion for a targeted 
block grant, and I want to urge the Senate to pass this bill.
    Unfortunately, Congress took a major step backwards 
recently when it approved a $122 million cut in the local law 
enforcement block grant. This 24 percent cut in funding 
provided directly to local governments and which we use in most 
instances for police overtime comes at the very time when our 
police departments are facing extraordinary and unbudgeted 
costs as a result of moving to a heightened state of alert as 
requested by the Federal Government and as demanded by the 
people we represent. I want to strongly urge the Members of 
this Committee to work with us to help restore this cut in the 
local law enforcement block grant, which program helps cities 
big and small around the country.
    Third, it is acknowledged that the Nation has failed to 
invest adequately in local public health infrastructure. 
Resources are needed for 24/7 disease surveillance, on-the-
scene investigations, local bioterrorism preparedness, 
planning, increased interagency communications and surge 
capacity. There must also be adequate regional stockpiles of 
vaccines and a rapid response testing network must be deployed.
    Let me talk a little about transportation security. Our own 
task force on airport security, chaired by L.A. Mayor Jim Hahn, 
has drafted detailed recommendations which are included in our 
national action plan. We want to compliment the Senate and the 
Congress and President Bush for embracing our recommendations 
that airport screening security personnel be federalized. We 
think this was an important step in the right direction and we 
want to work very closely with the executive and legislative 
branches to make sure that the time lines in the legislation 
are met.
    It is very important that baggage screening not be delayed. 
It is very important that the creation of the new Federal 
agency which is going to oversee aviation security not be 
delayed. We continue to work very closely with Secretary Mineta 
and we want to urge you to provide him with all of the 
resources necessary to fully implement this legislation on 
time.
    Several other areas, very quickly. Transit security, 
passenger and freight rail security, and port security are also 
areas of great concern. My city is a major port city, as are 
many coastal cities around the Nation. We must pay close 
attention to port security and develop initiatives in that 
regard.
    Finally, I want to talk a little bit about Federal-local 
law enforcement cooperation. We represent 650,000 local police 
officers, a powerful force in this war against terrorism, and I 
think our plea is that these local forces be fully integrated 
into our national homeland defense planning. We must create a 
new communications system between Federal and local public 
safety officials with a 24/7 threat assessment capability.
    In many meetings and discussions held on this subject since 
September 11, it has become clear that many barriers still 
exist at the Federal level. The Attorney General, we think, 
should be complimented on initiating a number of important 
steps to strengthen and alleviate these barriers through the 
anti-terrorism task forces, and our discussions with Director 
Ridge, Attorney General Ashcroft, and Director Mueller have 
been constructive. We strongly believe that any institutional 
barriers to greater intelligence sharing should be addressed.
    Senators Schumer, Clinton, Leahy, and Hatch have introduced 
a Federal-Local Information Sharing Partnership Act which we 
believe would allow the Federal Government to increase 
intelligence sharing with local and State governments and we 
urge its passage.
    Finally, in addition to these issues, there are many other 
areas that are covered in our national action plan, including 
border security, water and wastewater security, communications 
interoperability, and highway security, and I want to thank the 
Committee for the opportunity to testify today and I look 
forward to continued discussions as together we work to 
strengthen this Nation's homeland defense. Thank you.
    Chairman Lieberman. Thanks very much, Mayor, for an 
excellent statement and for the report that you have issued 
today, which we look forward to reading. I look forward to the 
questions and answers, too.
    The Hon. Javier Gonzales is the President of the National 
Association of Counties and a County Commissioner in Santa Fe 
County, New Mexico. He was elected to the Board of 
Commissioners in November 1994 and then reelected to serve a 
second term in 1998.
    I, being personal and not partisan in mentioning the great 
honor and adventure that I had last year running for national 
office. One of my favorite stops was in Santa Fe, where we had 
a wonderful rally. Probably my favorite sign of the campaign 
was a woman in the front row who held up a big hand-lettered 
sign that in three words said it all for me, ``Viva la 
chutzpah.'' [Laughter.]
    So it is in that spirit that I welcome you this morning.

 TESTIMONY OF HON. JAVIER GONZALES,\1\ COMMISSIONER, SANTA FE 
   COUNTY, NEW MEXICO AND PRESIDENT, NATIONAL ASSOCIATION OF 
                        COUNTIES (NACo)

    Mr. Gonzales. Thank you, Senator Lieberman and Members of 
the Committee, and we certainly enjoyed having you in Santa Fe 
last year, as well. Thank you for inviting me to testify on an 
issue of paramount importance to counties across the country, 
securing our homeland against the threat of terrorism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gonzales appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    My name is Javier Gonzales and I am an elected County 
Commissioner from Santa Fe County, New Mexico. I currently 
serve as President of the National Association of Counties.
    As you stated in your opening comments, counties are the 
first responders to terrorist attacks, natural disasters, and 
other major emergencies. County public health, law enforcement, 
fire, and other public safety personnel are responsible for on-
the-ground response and recovery action. Counties also own, 
operate, and secure key aspects of the Nation's infrastructure, 
such as airports, transit systems, water supplies, schools, and 
hospitals. Elected county officials like myself, along with 
emergency managers, provide the essential regional leadership, 
planning, and coordination function in preventing, preparing 
for, and managing our community's response to emergency events.
    In the wake of the terrorist attacks of September 11, 3 
months ago today, I appointed a NACo task force on homeland 
security. The task force, comprised of 45 top county officials 
from across the country, was formed to provide a forum for 
county officials to advise the Federal Government about the 
roles and concerns of counties regarding homeland security and 
to identify model county programs for our colleagues as we 
increase security measures and preparedness in our communities. 
The task force has met twice this fall and I would like to 
share a few relevant outcomes from those meetings with you.
    First, the importance of coordination has been a recurring 
theme. County officials believe it is critically important that 
emergency preparedness plans be coordinated and rehearsed among 
local, State, and Federal levels, as well as across the various 
agencies with a role in emergency response.
    In the event of an emergency, county officials strongly 
believe that the local first responder should maintain control 
of the scene at the ground level. In the case of involvement 
and support at the scene by multiple Federal agencies, we 
believe that the Federal Government should quickly identify the 
agency that speaks for the Federal Government and that all 
Federal agencies should diligently follow the lead of that 
controlling Federal authority.
    NACo, along with its sister State and local government 
organizations, has formally requested that Homeland Security 
Director Tom Ridge create a State and Local Advisory Committee 
to the Office of Homeland Security. The committee, comprised of 
elected officials from State, county, and city governments, 
would provide input and assistance to Federal homeland security 
activities and facilitate coordination among levels of 
government, and we have received a commitment from Governor 
Ridge that he will form such a committee and we look forward to 
the committee being established as soon as possible.
    NACo also has some specific recommendations in the areas of 
law enforcement, public health, communications, and emergency 
planning and preparedness. On law enforcement, it has been the 
longstanding concern of counties that intelligence information 
obtained by the Federal Government is not shared with 
appropriate local officials in a timely manner. Ultimately, 
this hampers our ability to track suspicious persons and 
prevent crimes from being committed.
    NACo has made a specific request to the Department of 
Justice that the composition of its anti-terrorism task forces 
specifically include elected representatives of county 
governments and that security clearances be provided to county 
officials for intelligence information commensurate with their 
responsibilities.
    We have seen some progress on this front. In a letter dated 
November 13, Attorney General Ashcroft informed county 
officials that he is setting up a system to share information 
with State and local officials through each U.S. Attorney's 
Office, and as I understand it, this system will provide a 
mechanism for Federal intelligence to reach appropriate 
officials at the local level and for information collected 
locally to be communicated to Federal law enforcement.
    In the public health area, there are two major points. 
First, county officials are calling on the Congress to provide 
adequate funding for the Public Health Threats and Emergencies 
Act. NACo believes that an appropriation of a minimum of $1.8 
billion is needed to implement the law fully and effectively 
with at least $835 million dedicated to building and 
maintaining local and State public health infrastructure.
    The second point relates to information dissemination via 
the Health Alert Network. NACo believes that the Centers for 
Disease Control Public Health Practice Program, the CDC office 
that best understands local dynamics, should continue to 
coordinate and communicate with county health departments and 
that there should be a focus on improving the Health Alert 
Network and on assistance with technological upgrades for 
county health departments.
    To enhance coordination among local jurisdictions, 
communications interoperability, the ability of one 
jurisdiction to talk to its neighbor during crisis must be 
increased. In this regard, NACo is requesting that the Federal 
Government help improve interoperability by releasing 
additional spectrum in the 700 megahertz band for public safety 
and emergency management use.
    Finally, as I mentioned toward the beginning of my remarks, 
counties as regional governments are in the unique position to 
provide the leadership, planning, and coordination function 
needed to prevent, prepare for, and manage the response to 
emergency events. While the survey we conducted in late 
September found that 95 percent of counties have emergency 
response plans, and 100 percent of large urban counties have 
both plans and mutual aid agreements with surrounding 
jurisdictions, there are still improvements to be made.
    Since October, NACo has been calling for the authorization 
of a local anti-terrorism block grant at a minimum of $3 
billion. NACo believes that these funds should flow directly 
from the Federal Government to local governments and that 
funding decisions under the block grants should be made county-
wide as an outgrowth of an existing all hazards emergency 
management planning process.
    Senator Lieberman and Members of the Committee, thank you 
for the opportunity to testify. Counties have a significant 
role to play in our new national strategy for homeland 
security. We are the public's first defense, but we do have 
limited resources and will need additional support and 
cooperation from the Federal Government in order to succeed. I 
would be pleased to answer any questions that you might have.
    Chairman Lieberman. Thanks very much, Commissioner 
Gonzales, for your very thoughtful testimony.
    The next two witnesses in some measure represent the heroes 
of September 11, coming as they do from Arlington County and 
embracing the attack on the Pentagon, responding to it, and 
from New York City. So we thank you both for being here and 
look forward to your testimony.
    First is the Hon. Jay Fisette, Chairman of the Arlington 
County Board. Mr. Fisette was elected to the Board in 1997 and 
became chairman in 2001. Good morning, Mr. Fisette.

TESTIMONY OF JAY FISETTE,\1\ CHAIRMAN, ARLINGTON COUNTY BOARD, 
                            VIRGINIA

    Mr. Fisette. Good morning, Senator Lieberman, Members of 
the Committee. You just stated why I am here, because Arlington 
County and New York City were the two targets, and as you all 
know, I was not one on the front lines. I was the chief elected 
official.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fisette appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    In the case of the Pentagon, the local government was 
Arlington. This meant that our mutual aid partners came 
together with us throughout the region to respond. Our fire 
department was, in fact, in charge and coordinated the fire 
rescue and recovery for the first full 10 days of the incident 
and thereafter, and the reality is they did their work. They 
are professionals. They did an outstanding job.
    Over the course of the event, staff from literally every 
county agency came together to respond, and I look at it as 
three attacks, in fact. We had the Pentagon, we had Reagan 
National Airport, and then we had the anthrax issues 
thereafter. We learned many lessons from this and we have been 
spending a lot of time hashing that out, and what became 
extremely clear to us was the important partnership between 
local government and the Federal Government and the increased 
emphasis that needs to be put on that, so I would like to share 
with you four recommendations that we have to put forward to 
you.
    One is there must be clear articulation of roles and 
responsibilities among Federal, State, and local agencies in 
emergencies, especially on Federal installations, such as the 
Pentagon, or Congress. This includes roles for FEMA, CDC, local 
fire and health departments, and others that you have already 
heard about.
    Arlington fought a fire at the Pentagon several weeks 
before September 11 and we have also responded to two fires 
since. In calendar year 2000, Arlington responded to 251 fire 
and EMS calls at the Pentagon. That created a history of 
respect and cooperation that was very instrumental in our 
response on September 11.
    We recommend, however, that the Federal Government work to 
establish formal memorandum of understanding with local and 
State officials for emergency responses at all major Federal 
installations, an MOU. We do not have one in place now.
    The second suggestion, as part of the development of these 
MOUs, an assessment should be made of local capacity to respond 
to different events in support of the Federal Government and to 
provide financial support to fulfill that capacity. As noted 
earlier, we have responded to the Pentagon continuously over 
time. However, we have never received any financial support, 
capital or operating, to meet those needs that go beyond the 
normal needs of our community.
    We are proud to serve the Pentagon and other Federal 
installations in the community, as are other communities. 
However, given the new reality and the new threats we face, we 
feel it is appropriate for the Federal Government to accept 
some role and responsibility in this, as well, and I support 
the recommendation I just heard from Mr. Gonzales, that those 
funds be made directly to the local governments.
    The third issue is really one that focuses here in the 
Washington region and that is an issue of indemnification. In 
the case of the greater Washington area, Congressional action 
is especially needed to approve legislation to eliminate issues 
of local liability in providing mutual aid. During the 
inauguration and other pre-planned events, local police are 
deputized as Federal marshals in order to avoid such local 
liability concerns.
    In an emergency, there is no time for such action, nor has 
there ever been an ability to address issues in the case of 
fire mutual aid. Congress needs to put this issue to rest by 
passing legislation that has since been drafted by the 
Washington Council of Governments.
    And finally, and, of course, the largest challenge before 
all of you, is the development of a national strategy for 
terrorism preparedness. As the Nation pulled together at all 
levels, and I believe we responded very well to September 11 
and afterwards, that may not always be the case. A major reason 
we did, however, is because we did not have more casualties. 
Despite the horrific nature of the attacks here in Arlington, 
we did not have mass casualties flooding our limited hospital 
capacity, and you have heard Senator Thompson and others refer 
to this.
    We would like to put some increased emphasis and believe it 
needs to be placed on the hospital system's capacity and the 
public health sector capacity, as well. It was a wake-up call 
to the Federal Government about the limited capacity of our 
hospitals that health care competition and cost containment may 
have contributed to. At the same time, with the development of 
antibiotics in the last century, there has been a steady 
erosion of our public health capacity, those who are on the 
front lines of a biological attack. These are the disease 
police.
    So a national strategy or standards for preparing or 
responding to biological and chemical attacks needs to be put 
in place. Now that we know that they are not theoretical, we 
need to be able to do better. We need to address protocols for 
the National Pharmaceutical Stockpile. We need to train and 
practice in deployment. And we must have a way to get 
consistent, accurate, and authoritative information, I think a 
theme you have already heard.
    So in closing, I think there is a window of opportunity we 
have not had before. People's awareness is high. At the local 
level, we know that we will always be the first responders and 
we are working hard on our own planning and development 
capacity, but no local government will be able to respond to a 
major event alone, especially on Federal installations, and the 
Federal Government needs to be fully engaged in the 
preparedness, assessment, and planning, and in providing the 
resources necessary to make that happen. Thank you.
    Chairman Lieberman. Thank you, Mr. Fisette, for your 
leadership and also for very interesting testimony. I had not 
thought about the problem of liability and it is an important 
one.
    I regret to say that we are in the middle of a vote on the 
Senate floor, so we are going to have to recess the hearing. 
This is one of three votes. We will see if we can work it out 
so that we come back in the middle for a little bit more, hear 
the two witnesses, and then go back for the last one. In any 
case, the Committee will stand in recess for a few moments. 
Thank you.
    [Recess.]
    Senator Lieberman. The Committee will reconvene. Thanks 
very much for your patience. We caught a break that the Senate 
decided to voice vote the second two judicial nominations, so 
we were able to come back a bit earlier than we might have 
been.
    Our next witness is Richard Sheirer, who is the Director of 
the Office of Emergency Management for the City of New York. We 
have all watched with tremendous admiration the city's response 
to these attacks. If Mayor Giuliani has been the Commander in 
Chief, maybe perhaps it is appropriate to say that Richard 
Sheirer is the Chairman of the Joint Chiefs of Staff in this 
particular response and they have had great help from the fire 
commissioner and police commissioner and others, as well. Mr. 
Sheirer continues to be involved in the response right to this 
day, so we appreciate the time you have taken to come down and 
share your experiences with us. I know they are going to be 
helpful to us in the future of planning responses to what we 
hope will not happen again, but we have got to plan in case 
they do.
    Mr. Sheirer, thanks. We look forward to your testimony now.

    TESTIMONY OF RICHARD J. SHEIRER,\1\ DIRECTOR, OFFICE OF 
       EMERGENCY MANAGEMENT, NEW YORK CITY MAYOR'S OFFICE

    Mr. Sheirer. Thank you, Senator. Good morning, Chairman 
Lieberman, Senator Thompson, and Members of the Committee. I am 
Richard Sheirer. I am the Director of the Mayor's Office of 
Emergency Management and I come with a unique background.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sheirer appears in the Appendix 
on page 96.
---------------------------------------------------------------------------
    I spent 28 years in the New York City Fire Department, 
followed by 4 years as Chief of Staff at the New York City 
Police Department, and in February 2000, I was appointed the 
city's Director of Emergency Management. I think that 
background gave me the opportunity to handle the situation we 
faced from September 11 on with a full hand, and I think it is 
important that we talk about the things that we did and how 
they impact homeland security and how OEM in particular impacts 
the local role of homeland security.
    In 1996, recognizing the need to enhance interagency and 
intergovernmental coordination for planning, preparing, and 
responding during any emergency, Mayor Giuliani established the 
Mayor's Office of Emergency Management through an executive 
order. OEM in New York City is a multi-jurisdictional agency 
comprised of personnel drawn from city agencies, including 
fire, police, health, environmental protection, emergency 
medical services, and other agencies. OEM was recently 
described by the Mayor as New York City's Office of Homeland 
Security and has been crucial in managing and coordinating the 
city's response to the World Trade Center attack, the anthrax 
incidents that occurred, the ongoing recovery efforts at the 
World Trade Center, and the November 12 crash of Flight 587.
    OEM is responsible for monitoring and responding to all 
potential emergency conditions and potential incidents, whether 
they be emergencies or not, where there is a multi-agency 
response. We operate the city's Emergency Operations Center, 
the EOC, which enables the Mayor and the city to manage any 
multi-agency emergency condition and any potential incident. It 
is used for weather. It is used for good events, like the new 
millennium. And it was critical to our ability to address the 
incidents of September 11.
    We research, we compile and evaluate the contingency plans 
of every agency of the city. We have drills on every type of 
emergency we can possibly have and we prepare and organize and 
conduct those drills with the help of every agency of the city. 
And we coordinate special interagency and intergovernmental 
responses.
    As I said, the backbone of OEM is its Emergency Operations 
Center. We activate it in times of any multi-agency incident or 
the anticipation of it. Anything that affects the lives and 
safety of people who live, work, or visit New York City, it is 
our job to make sure that we respond to it.
    During and after the World Trade Center attack, the EOC 
operated on a 24-hour, 7-day-a-week basis, with representatives 
of 110 local, State, and Federal agencies, the voluntary 
organizations such as the Red Cross, Salvation Army, and the 
public utilities which provide gas, electric, steam, and 
telephone communications. These 110 agencies were represented 
by anywhere from 300 to 1,000 people in the EOC at any given 
time. We had to feed them. We had to provide them with rest 
areas. We provided medical and mental health services. In 
short, the EOC became a small town. In fact, the Mayor even 
performed the marriage of a Marine who was working in the EOC 
during his time there.
    On September 11, after the first airplane flew into the 
north tower of the World Trade Center, OEM immediately 
activated its Emergency Operations Center at Seven World Trade 
Center and began to coordinate the emergency operations in 
conjunction with the fire department, the police department, 
Port Authority police, numerous other emergency agencies, the 
health department, our mutual aid plan from the surrounding 
areas, and others. Despite the loss of OEM's EOC in Seven World 
Trade Center at the very moment when we needed it most, we were 
able to quickly reestablish an Emergency Operations Center and 
continue to coordinate the emergency response to the World 
Trade Center attack.
    The importance of a fully equipped, technologically 
advanced Emergency Operations Center to coordinate Federal, 
State, and local responses to the September 11 attack was 
immeasurable. It was possible to immediately share and gather 
information among the various Federal, State, and local 
agencies to address the issues and needs of the emergency 
workers and of our citizens as they arose. It made it possible 
to coordinate the various multi-agency responses. It was 
possible to coordinate and assist the utilities and the various 
agencies to rebuild the damaged infrastructure, while at the 
same time providing resources for the rescue efforts.
    The effort was critical to reestablishing the world 
financial markets of the New York Stock Exchange, the American 
Stock Exchange, the Mercantile Exchange, the NASDAQ as quickly 
as possible to make sure that the world knew our resolve to get 
back to normal as much as we could, no matter what happened.
    OEM is responsible for preparing for the unexpected. We 
have a very significant medical surveillance system which 
monitors emergency responses by ambulances based on systems. 
That system allows us to identify trends and abnormalities very 
quickly and have Department of Health epidemiologists start to 
work to find out what is causing it.
    We also monitor purchases of over-the-counter drugs from 
various pharmaceutical chains to see if there is any unusual 
usage of flu medications, diarrhea medications, those 
medications that could possibly indicate that the public has 
been faced with an attack like we did during this time with 
anthrax. We use that and we compare everything to the 
historical data we have collected to see where there is an 
abnormality.
    From October 12 to November 9, we faced the additional 
incident of the anthrax letters sent to various media locations 
and outlets. We coordinated Points of Dispensing. On September 
12, we were scheduled to have a drill called the TriPOD. It is 
a point of dispensing to test our bio plan, our ability to 
distribute medication to the public as needed. Ironically, the 
location of that drill is where we now have our EOC. We took it 
from one thing to another. But our plan worked. We used it at 
NBC and ABC. CDC is looking at it as the model to use across 
the country.
    It all boils down to one thing, planning and preparation. 
The old adage, how do you get to Carnegie Hall? Practice, 
practice, practice. It could not hold truer for what we do. 
There are times when people say, why are we having another 
drill? Why are we having another planning meeting? Why are we 
having another exercise? I think those questions will not be 
asked again. We have learned very significantly how important 
those items are, and there are a number of lessons we have 
learned from the city's ability to respond to the attack.
    Before September 11, as I said, the city was amongst the 
best prepared in the country, with plans and exercises and 
drills on every imaginable emergency. We used all those 
preparations to address the issues we faced from September 11 
on. We took a little piece of our coastal storm plan, a little 
piece of our all hazards plan, and we were able to address the 
issues as they arose.
    The preparation of enhanced degree of communication that 
has been spoken of before, it is critical that we communicated 
with our State and Federal partners. The State Emergency 
Management Agency of New York and FEMA have been our partners 
from day one. They have walked with us hand in hand. They have 
been supportive. They knew that New York City was one of the 
major cities in this country that could handle this on a local 
level and they provided the backbone of support in terms of 
logistics and advice, but they have not gotten in our way, 
which is very important.
    Many of the officials who visited New York City before 
September 11 would come to our operations center and they would 
comment on how they wished they could afford to have such a 
facility. If there is one thing we have all learned is that the 
reality is they cannot afford not to.
    I believe that you have heard this before and you will hear 
it again. Mayor Giuliani and the police commissioner have said, 
and I believe critically, that one of the most essential 
elements in effectively protecting not only our city but every 
locality from terrorist attacks is the communication of 
information sharing between the Federal, State, and local law 
enforcement.
    In New York City, we have created a multi-agency 
intelligence sharing network of the New York City Police, the 
Port Authority Police, the New Jersey State Police, the New 
York State Police, to share information as much as we can. But 
it still is not the sharing we need and we need more of it with 
the Federal agencies and we are all working towards that.
    After September 11, we have increased the number of New 
York City police officers in the Joint Terrorist Task Force, 
the New York FBI Task Force. Those task forces are our first 
line of defense in terms of terrorism, and having worked with 
them in a past life in the police department, the value for 
every jurisdiction that has a Joint Terrorist Task Force is 
exceptional. They provide you the best information of the best 
and the brightest that the Federal agents that are available 
and your people become critical. We are expanding our 
participation to agencies beyond the police department.
    In closing, I thank you for the opportunity to speak to you 
about the city's role in national and local homeland security 
and that role in response to the World Trade Center attacks and 
to again emphasize the crucial need of sharing intelligence 
among the Federal, State, and local law enforcement 
authorities. An open flow of intelligence information is vital 
for us to be prepared for whatever may happen. Also, the need 
for localities to have a full-functioning emergency operations 
center cannot be overstated. If they have to combine resources, 
they should make them multi-jurisdictional, but they need that 
resource when something strikes.
    And finally, I want to thank you for holding this hearing 
to see what we can do to make sure that the lives of our 
citizens on a daily basis are protected from the evil people 
that struck New York City and Arlington and Pittsburgh on 
September 11. Thank you.
    Chairman Lieberman. Mr. Sheirer, thanks for all you have 
done and for very thoughtful testimony today. I look forward to 
the questions.
    Our final witness on this panel is John White, Director of 
the Tennessee Emergency Management Agency, a real professional 
in this field. He has been with TEMA since 1967 and director 
since 1994. Mr. White, thanks for being here.

    TESTIMONY OF JOHN D. WHITE, JR.,\1\ DIRECTOR, TENNESSEE 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. White. Thank you, Mr. Chairman, Senator Thompson, and 
other Members of the Committee. I sat here and listened to the 
other members of this panel and determined that my reading of 
this speech will probably not do any good. They have echoed 
everything that I feel that you should know.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. White appears in the Appendix on 
page 109.
---------------------------------------------------------------------------
    I think that one of the things that we all wonder about, 
and I was listening to different members here, is where we are 
at and where we are going to and how we are going to get a 
little further along.
    Since September 11, I think that you have seen the things 
that have come together, that have been practiced across the 
United States for a long period of time. Since 1968, we have 
had Emergency Operations Centers. We have had other types of 
emergency plans and exercises. I think that Richard said 
testing and exercising is so important. The funding of that is 
tremendously important and there is not enough of that simply 
because the funding is not available.
    Since September 11, I think that the State and local 
governments have just absolutely been overwhelmed by studies. I 
brought a copy of just one study. This was the study that the 
Department of Justice requested. That is one study. I reduced 
it where it was a little bit manageable. The FBI requested 
another one that we did that is actually 12 notebooks thick. We 
have had the same type of studies from FEMA, which I brought a 
copy, DOJ, FBI, National Guard Bureau, the Fire Association, 
DOT, CDC, DOE, and NSF, every one of them different, every one 
of them since September 11, and none of them asks the same 
questions. None of them have the same criteria.
    I am in a unique position that I got to see all the 
different ones, but I doubt that anyone on this panel has ever 
seen this from their locale. I do not know why we cannot do one 
for everybody. I do not know why we cannot set a standard that 
is there. We have done in the past all kinds of assessments on 
sensitive facilities, emergency facilities, medical facilities, 
evacuation shelters, but yet we redo them again. It is another 
requirement.
    We were talking about information going up and then 
intelligence coming up and no information coming down. I hold a 
``secret'' clearance. I hold a ``top secret'' clearance. I hold 
a ``top secret departmental'' clearance, a ``Q'' clearance, yet 
I do not hold a clearance to know anything about terrorism. 
FEMA's clearances are not good with DOE. DOE's clearance is not 
good with NSF. NSF is not good with the military. The military 
is not good with anybody. And then DOJ is not good for any of 
those.
    I asked the other day--I just got through redoing my ``Q'' 
clearance--what does it cost to do a clearance? Initial step, 
$5,000 per person. How many clearances do we have and how many 
different types? Did they spend $5,000 on me on each security 
clearance I have got? And nobody knows--I can give you all 
kinds of things like that. I doubt there is a security 
clearance you can get to see the information.
    I think that you find if you do not work for the FBI, the 
information is not passed down. You pass it up when you get 
information. If you are lucky, when it happens, then they are 
there.
    You look at exercising. FEMA is really good about 
exercising and the Federal Government is really good about 
exercising, but they never play. You never know exactly what 
you are going to get. We have two nuclear plants within the 
State. We have to, every year, exercise in the nuclear plant 
where they would be relicensed. That is some approximately 
3,000 people play in that exercise. That is State and local 
government. There has never been a Federal agency play in the 
exercise. They grade it. Do we know what we would see from the 
Federal Government if we had a nuclear accident? We guess at 
it.
    When you are looking at exercising at that level and the 
exercising that is required, you must put some type of funding 
for local government and for State Government to be able to do 
it. They cannot afford it, to pay the overtime, to pay the 
other people that are required in there just to do it. 
Tabletops cost a tremendous amount of money, but the real 
exercise costs a lot.
    I look forward to answering some of your questions. I look 
forward to helping out in this problem. Thank you.
    Chairman Lieberman. Thanks, Mr. White. You actually posed 
the questions, and I think you did them very well from your 
experience.
    Senator Levin. Would you yield for 30 seconds, Mr. 
Chairman, just to put my statement in the record?
    Chairman Lieberman. You are asking a lot of me this 
morning. [Laughter.]
    Yes, of course, I will.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you. If I could just put this 
statement in the record, and I hope to get back before the end 
of the hearing. If I could take 10 seconds, one part of my 
statement has to do with this intelligence sharing between 
Federal and State, which I just heard these last two witnesses 
talk about.
    A former assistant district attorney told my office he 
would rather have needles poked in his eyes than to have to 
work with the FBI on an investigation. [Laughter.]
    I will put the balance of my statement in the record.
    Chairman Lieberman. That is pretty graphic. Thanks, Senator 
Levin.
    [The prepared statement of Senator Levin follows:]
                  PREPARED STATEMENT OF SENATOR LEVIN
    In the minutes, hours and days after the terrorist attacks on 
September 11, the people we saw on the front lines at the World Trade 
Center in New York and at the Pentagon here in Washington--the first 
responders everyone was watching around the globe--were local 
firefighters, police officers, and other emergency personnel. They were 
the ones charged with the responsibility of responding to the injuries, 
the developing threats, and the public reaction. Nothing tells us more 
clearly how important state and local governments are in our fight 
against terrorism than our experience of September 11. We owe our local 
personnel a great deal of thanks and respect.
    But we also owe them the commitment to try to make our 
intergovernmental systems work better in the future. I imagine all of 
our offices have heard concerns expressed by our state and local 
governments back home of communication and information problems. Local 
police officials in Michigan have told my office, for example, that 
they are not receiving the information they need. Our witness today, 
the President of the International Association of Chiefs of Police 
expresses a similar concern, particularly with respect to classified 
information, and has identified several areas where state and local 
police officers could greatly benefit from training, in such areas as 
responding to biological, chemical and nuclear incidents. We need to 
address these requests with meaningful action.
    I also want to add that most importantly, our Federal agencies have 
to see state and local governments as equal partners, people with whom 
we are working together and collaborating to make progress against 
terrorism. I have heard too many stories in the past about the 
arrogance of agencies like the FBI when they interface with local 
police. A former assistant district attorney recently told my office 
that he'd rather have needles poked in his eyes than have to work with 
the FBI on an investigation. Instead of sharing information, they 
apparently often hide it. Instead of working as a team, they work as 
competitors. To the extent that is still happening, and I hope it is a 
thing of the past, we have to stop it. In these new times, old 
practices like that have no role to play.
    Communicating within a state is also key. My own state of Michigan 
completed and submitted its three-year Statewide Domestic Preparedness 
Strategy report to the Department of Justice in October. States were 
required in 1998 to prepare a statewide assessment that shows the needs 
and vulnerability assessments of the state. Each state's study will 
then be used to channel future Federal assistance through state 
governments to enhance state and local emergency preparedness. Every 
state is either working on their own self evaluating report or has 
submitted such a report. These reports will hopefully be helpful, not 
only to the state, but also to Governor Ridge and his Office of 
Homeland Security.
    No one has more responsibility for the inter-governmental 
relationships around terrorism than Governor Ridge. Governor Ridge has 
done a good job so far. He responded positively when I asked that 
National Guardsmen remain in place at the international border 
crossings in Michigan when their funding was set to expire. I am 
hopeful that he will continue to seek input, not only from Congress, 
but from local entities, both private and public, in creating an 
organizational structure to fight terrorism.
    Although today's hearing is focusing on the role of public 
officials, it is crucial that private companies are also consulted. My 
staff recently met with an association based in Detroit that represents 
independent pollution spill response companies across the U.S. They 
offered to provide their expertise and help to train local officials in 
remediation including chemical and biological hazards. Yet, they were 
unsure where to go to offer their assistance. My staff directed them to 
Governor Ridge's office and they are attempting to meet with his staff. 
The point is: we have private resources here that should not be 
overlooked. Many citizens tell me that they desperately want to help 
their country in some way besides spending money, and private companies 
may offer a way for citizens to help in what they may see as a more 
tangible way.
    It is a terrible force that we are up against--hatred always is. 
But we have a lot of good people willing to help and a lot of hard work 
to do. I look forward to hearing from the witnesses who can teach us a 
great deal from their own real life experiences.

    Chairman Lieberman. Let us talk about that one a little 
bit, because we have heard that. I have heard it a lot, and 
probably all the Members of the Committee have. There are real 
concerns nationally, particularly from mayors and people in 
local law enforcement, about the difficulty in getting 
information from the FBI, and I presume here we are talking 
about intelligence information that might lead you to know 
about whether your local area is maybe vulnerable or subject to 
attack. Even though we have heard every time Attorney General 
or Governor Ridge has put out one of these national alerts that 
they have notified the 18,000 law enforcement officials around 
the country.
    So my question is, and maybe I will start with you, Mayor 
Morial, have you had that problem? Is it as widespread as the 
anecdotal evidence that I have had? I did mention in my opening 
statement that Director Mueller of the FBI has formed a 
committee or a task force of some kind. Are you hopeful that 
can solve this problem?
    Mr. Morial. It is a concern by mayors and police chiefs 
around the country. I think the experience is if there is a 
working relationship between local government and the special 
agent in charge in that jurisdiction, then based on those 
relationships, those working relationships, the information may 
flow. If there is no working relationship, then the information 
does not flow----
    Chairman Lieberman. Right.
    Mr. Morial [continuing]. And I think it calls out for there 
to be a protocol established in terms of how and what 
information is going to flow and to whom.
    For example, 2 weeks ago when Governor Ridge announced his 
non-specified threat, the first thing--the thing he did before 
announcing the threat publicly by way of a press conference was 
to convene a conference call with the Nation's 50 governors, 
and those governors, I take it, were not in turn advised as to 
what they should do with the information.
    In my own view, the appropriate thing for the governors to 
do would have been to hold a follow-up conference call with the 
chief law enforcement officers of every county, or in the case 
of Louisiana, the parish in their State to provide the 
information to them and then they could, in turn, transfer it 
to local police, chief elected officials in those areas.
    I found out, because when the threat--when I saw Director 
Ridge on television, I called my chief of police and asked him 
if he had received the information. Lo and behold, I found out 
only after asking him that the information was being 
communicated to local law enforcement through their NCIC 
computer hookup, which is not commonly monitored for this kind 
of information by local law enforcement.
    So, Senator, what it calls out for is there needs to be a 
protocol established by administrative rule, by administrative 
regulation, by statute, if necessary, as to what information 
should flow and how it should flow and the time frame in which 
it should flow.
    Chairman Lieberman. That is a good recommendation. I wonder 
if any of the rest of you want to comment on that, and if you 
do, help us understand what the problem is. Is it that the FBI 
is not sharing information in advance or is it that once there 
is a crime, there is a joust for jurisdiction or cooperation? 
Commissioner Gonzales.
    Mr. Gonzales. I would just say, Senator Lieberman, there is 
no doubt that the thousands of public law enforcement officials 
around the country, public safety officials, are gathering 
information. Part of the frustration we are hearing from our 
sheriffs around the country is that the information is moving 
up but it is not coming down, that the information becomes very 
fragmented. They are gathering information. The city police 
officers are gathering information. They are sending it 
somewhere. Someone is making a decision as to whether there are 
threats that are being accumulated and then nothing is coming 
back.
    And so I think it comes down to the simple relationships, 
as Mayor Morial indicated, that the local FBI has with the 
local law enforcement. If you have an established relationship, 
you are going to share information. I was told by our own local 
law enforcement officials that the FBI has indicated there is 
some information that they do not know and that they cannot 
pass down----
    Chairman Lieberman. Yes.
    Mr. Gonzales [continuing]. And so there are different 
classifications that exist, and so what they are receiving may 
not be the entire picture.
    So it is very difficult for our local law enforcement 
community to operate on fragmented information. They are doing 
the best they can, but it is almost a wait and see type of 
deal. And so as Mayor Morial indicated, I think it begins first 
with the local relationships, but it has got to start from the 
top. They need to know that there is going to be some type of 
uniform effort to assure that level of communication is 
occurring all across the board.
    Chairman Lieberman. Thank you.
    I wonder if, Mr. Sheirer, if you care to remark on how 
working relationships were with Federal law enforcement during 
the crisis that both of your governments responded to so well.
    Mr. Sheirer. We had a very good working relationship with 
the New York office. Barry Mawn and the Assistant Deputy 
Director, and prior to him, Jimmy Kallstrom and Lou Schlero 
have had an exceptional relationship with the Police 
Commissioner and the Chief of the New York City Police 
Department, and the Joint Terrorist Task Force works very 
closely. It is very well mixed with police officers and FBI 
agents.
    Our experience in this incident was that there was a lot of 
information coming from a lot of different sources that was not 
filtering down to us what we felt was quickly enough, and I 
think you experience that in any crisis. But particularly when 
it comes to law enforcement information, probably one of your 
biggest sources is the street cop, whether it be a street cop 
in L.A. or a street cop in Brooklyn. That information that gets 
to the FBI has to be--they have to find a way to disseminate 
that to the right jurisdiction.
    Chairman Lieberman. Right.
    Mr. Sheirer. It is an enormous undertaking, but it has got 
to be done. It is critical that we have the information that 
they know as quickly as they can possibly share it with us. It 
is not something that can sit on someone's desk or someone 
should be evaluating it without talking to the jurisdiction for 
whom a threat is pointed at, because there are local issues 
that that person in the city, in the jurisdiction, in the 
county would understand maybe better than an FBI agent who is 
not from that area. There are a lot of individual things and 
that sharing has to improve, and I think everybody acknowledges 
it. It is just the way to get it done.
    Chairman Lieberman. Well said. Mr. Fisette.
    Mr. Fisette. I would only agree, I think, with Mr. Sheirer 
that our police department has a quite good relationship with 
the FBI. On the other hand, I think the suggestion of a 
protocol where you find that balance between providing 
sufficient information so that we at the local level can, in 
fact, fulfill our responsibilities, yet not compromise the FBI 
in a way that in the long term would be detrimental.
    So having that discussion, creating the protocol seems to 
be--there will always be tension in any emergency situation. I 
think that is inevitable. However, it can be made better.
    Chairman Lieberman. Thank you.
    Mr. White, let me take you to another question that you 
raised that I wanted to ask you is with your example of the 
reports. I just have a minute or so left on my time. Obviously, 
in the existing framework, you have the Department of Justice, 
HHS, FEMA, a whole range of Federal agencies that deal with the 
terrorism problem now that are interacting with State and 
county and local governments, and your example of the various 
reports that are quite similar being asked by the different 
agencies is very graphic and illustrative.
    What is the way, from your perspective as a State official, 
to make this work better? I mean, should we be creating an 
overall block grant of some kind? Should there be more 
coordination in the relations on this subject of anti-terrorism 
through the Department of Homeland Security? What ideas do you 
have about how to make this part of it better, because it sure 
seems like a waste.
    Mr. White. It would seem to me that there has been an 
agency established, be it Homeland Security or FEMA. FEMA is 
more than the Department of Justice, more than any of the other 
agencies that I know of, dealing with State and local 
government every day. They have a conduit by which money can 
flow to local government to produce, to abstain, to train 
people, for equipment, for exercising, and other things.
    Also, I think that we have done all these different types 
of studies, and for some reason, they are not shared at the 
Federal level. In other words, I doubt that DOJ has asked FEMA 
for anything. I sure know that NGB has not asked any of them 
for anything. They just do not talk.
    That is alarming in that when you get to comparing the 
questions, you get to looking at the answers, and remember, the 
answers are kind of arbitrary, so you can make it look as bad 
as you want to or as good as you want to with a number.
    I kind of wish they had come to one agency in the State and 
said, coordinate--this is what we want to know, coordinate this 
for us, and let one group help them through it and set a 
standard. But that is not the way it is happening.
    Chairman Lieberman. Those are some good ideas, Mr. White, 
and I thank you for them.
    Senator Cleland just arrived. It reminds me that at an 
earlier hearing after September 11, we had, if I am not 
mistaken, your counterpart in Georgia, who is the head of 
emergency management. As his illustration--no joke--of the 
problems that the Federal agencies have in not communicating or 
in sharing jurisdiction, apparently at the scene of the bombing 
in Atlanta during the Olympics, this gentleman witnessed the 
beginning of a fistfight between two representatives of two 
different Federal agencies who were jousting for control over 
the site, so we have got some work to do.
    Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman.
    Mr. White, thank you very much for your insight. I think 
you have really put your finger on the crux of the problem that 
we are facing here.
    Following up on Senator Lieberman's last couple of 
questions, what is your feeling as you look at the Office of 
Homeland Security as it is being set up now? It is awfully 
early in the game. Governor Ridge has just really had an 
opportunity to get into it. He has all these agencies to deal 
with, all these problems, duplication, overlap, and he is 
hearing, I am sure, from all over the country some of the same 
things that you have been saying.
    Would you have any suggestions to him? Should the problem 
be given to FEMA within his jurisdiction, under his umbrella? 
Do you see anything that they are doing or not doing that you 
would comment on as to whether or not you feel they are going 
in the right direction with regard to some of these problems 
you have just been talking about?
    Mr. White. I think Governor Ridge has not been there long 
enough to really get a handle on the different areas that are 
going to come up by anyone new in that type of position. In 
reading his charge, it's certainly an astronomical task that he 
has to do. It is going to be remarkable to see him do it.
    Senator Thompson. It would seem like that would be the 
place where all of this has to come together, would it not, and 
resolved?
    Mr. White. I would probably say yes, but I do not think it 
can happen, the reason being is that one State, right here, 
what happens is what I call smoke and mirrors. Who is in charge 
today? So we give him 50 States this thick and say, OK, now 
when you get through, when you know what this means, come talk 
to me, well, guess what? It will never happen. We multiply the 
amount of paper and the other agencies do what they normally 
do, will get another survey.
    The next thing is that there are no requirements that he 
can lay out for things to happen. I am exercising--for a fixed 
nuclear facility plant, I am exercising all the local PDs. If 
something happens, what is the difference in a release at a 
nuclear plant, be it because of a failure of a piece of 
equipment or because of terrorism? There is not. But that is 
not impacted into what we are doing. The money that we need to 
do that for the other locations are not there.
    When you look at the City of Memphis, which is a wonderful, 
a very robust city, we have got the urban search and rescue 
task force there that came to the Pentagon. We have got 
probably more resources than the entire State. But to exercise 
it, there is no money. There is no criteria there except for 
FEMA.
    I am not sure Governor Ridge can ever get to that, and I am 
not sure that the other Federal agencies will let him have that 
kind of jurisdiction anyway. You are talking about turf now. 
That is important.
    Senator Thompson. You are addressing the same things that 
we have been talking about here for a long time now. Clearly, 
the President is going to have to make it clear that he has the 
authority and he is going to have to exercise that authority.
    Mr. White. I think FEMA has done one thing. FEMA is an 
agency that is not in charge of anything when you really think 
about it. What they are is a very good turf walker. We 
coordinate and emergency management coordinates a lot of 
agencies that have legal responsibility to do something. We 
coordinate them together. We do not want what they do. I do not 
want to be a fire fighter. I do not want to be a policeman. I 
do not want to be a lot of things. But I coordinate what they 
do in one direction.
    It is a very unique thing to walk on somebody else's area 
and get their help. FEMA does that well. Now we have got to 
train someone else how to do that.
    Senator Thompson. I am going to make sure that the people 
in the Office of Homeland Security get the benefit of your 
thoughts on all of this. Is this one report--did you say you 
had to send several reports like that in?
    Mr. White. Yes.
    Senator Thompson. To all the various agencies?
    Mr. White. These reports, you know, it is not only us, but 
local government. There are some 10,000 questions in here. Even 
once you read it, and I have read through it twice, you really 
have nothing because there is no thread through it that makes 
it seamless to mean anything. This was with the Department of 
Justice, another one with FEMA.
    Senator Thompson. And they accumulate?
    Mr. White. And they accumulate and they never--I cannot let 
some of my people see the National Guard Bureau's report. Some 
of them cannot read this. Some of my planners cannot look at 
the DOE reports. And they are dealing with----
    Senator Thompson. Well, do not feel too bad. We have had, 
for a decade now or more, we have accumulated reports here in 
Congress, GAO reports and Inspector General reports and in some 
cases intelligence community reports, laying out for us the 
terrorism threat and the threat of weapons of mass destruction 
and all the things that can happen and how vulnerable we are, 
time and time and time again.
    So something finally happens and we are still trying to 
figure out how to get anthrax out of one of our buildings here 
because we cannot agree on the nature of the matter. It is all 
up and down the Federal Government. The FBI is now scrambling 
and trying to, I think, get its arms around all this, but the 
FBI is used to solving crimes after the fact. They are not used 
to having to deal with threat assessments, risk assessments, 
training, exercising, all these issues now that we have to deal 
with. So it is a whole new culture for them. We are having to 
learn how to walk again in a lot of these areas.
    You mentioned these nuclear plants. Are you getting any 
assistance? Are you having any communication? Are they 
requiring you, for example, to make your threat and risk 
assessments with regard to those plants in your reports, and if 
so, are you getting any feedback? Are you getting any help or 
assistance in terms of planning in case we had a disaster of 
that kind with regard to those nuclear plants?
    Mr. White. Not from the Federal Government. It comes from 
the plant site specific to the State. That is done by the 
utility. It just so happens in Tennessee it is TVA. That is 
non-Federal money comes from the generation of power.
    Senator Thompson. Do you need that kind of additional 
assistance?
    Mr. White. Yes, sir. When you look at the money that the 
State and local governments around that area put in for that 
plant to operate, it requires more assistance than what is 
there. You do what you do with what you have. We were very 
fortunate in the licensing of those plants, the first to 
license after Three Mile Island, then the last plant to get a 
license of that type in the United States, which was very 
fortunate. But that is the type of planning that is there also 
that you use for homeland security. That is what you are 
looking at.
    There are other things. I think that the individual 
counties, we handle in the State some 3,000 to 3,600 missions 
and incidents a year, in 1 year's period. That is stuff that we 
respond to with the local governments. We handled 3,000 hoaxes 
of anthrax. Where does that come from? We had to treat every--
where does the money for that come from? There has been no talk 
of any kind of help for that.
    What we are looking at we have upped the security in the 
airports, yet the Governor and mayors and chief executives have 
had to up the security around courthouses, overtime. We have 
had to put National Guardsmen around the Capitol. This is 
another security threat. Yet, there is no money there for that. 
Does the State try to pay for it? I do not know. We are paying 
$10 million since September 11 for extra security and for 
things like this right here that we did not program, and I know 
that you all did not, either.
    Senator Thompson. Mr. Chairman, I think we are just 
beginning to get a slight feel for what the financial impact of 
all of this is going to be on the Federal Government and on the 
State and local governments. We have got training and threat 
and risk assessment and exercises that need to be done, and 
nobody really can tell what all this is going to cost. We have 
a few bills around, each one of them has a few billion here and 
a few billion there, but it is going to affect our fiscal 
picture here in tremendous ways that we are just beginning to 
have an appreciation for.
    Mr. White. I do not pretend to know, Senator, the 
challenges that you all have on a day-to-day basis. Also, I was 
looking at some of the bills coming out, you know, and you said 
it, that we are putting a little bit of money here, a little 
bit of money there. I would say to you, out of each one of 
those little bit of monies, there are a lot of people that take 
it off the top. And when you look at what comes off the top to 
get to the bottom, by the time it gets to the bottom, there is 
not any.
    Senator Thompson. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Thompson. I could not 
agree with you more. Hopefully, the Committee can play some 
role in creating more clarity and better organization and more 
efficiency in the use of Federal resources. But the reality is, 
we did enter a new chapter of our history on September 11 and 
we have a requirement to focus on homeland security which is 
greater than we have ever had before, a whole new dimension.
    And you all represent--you have said it over and over 
again--the front-line troops. We do not have to create a 
domestic security force, or as other countries have, an 
interior department with internal security. We have got it. You 
are out there. Now the question is--and you are performing a 
national function and the question is how we can come to some 
appropriate level of support for what the Nation is asking you 
each to do and how we can better coordinate the relationship 
between the various levels of government, and that is the 
challenge we all have together. There is no question we can do 
it, because we have got to do it.
    Senator Cleland, thank you for being here.
    Senator Cleland. Thank you very much, Mr. Chairman. Thank 
you for holding the hearing. Before I get into my opening 
statement, which I understand I can do before the next panel--
--
    Chairman Lieberman. Or if you want to do it now, go right 
ahead.
    Senator Cleland. Actually, I would just like to follow up 
with Mr. White's observations. Mr. White, you have such a clear 
and an unvarnished understanding of how things work, I wondered 
where you are from. I know that you are from New Georgia, so I 
think that---- [Laughter.]
    Mr. White. Senator, I am from Tennessee.
    Senator Cleland. I know. [Laughter.]
    I was just sitting here absorbing your insight. We have an 
outstanding emergency management operation in Georgia. Gary 
McConnell, your counterpart there, he is the kind of person 
who, when the popcorn hits the fan, or as Jeff Copeland says, 
the head of CDC, when the anthrax hits the fan, he is the kind 
of person you want in the foxhole with you. He has a great 
sense of where things are and what ought to be done and 
anticipating the command, all those things, and I have seen him 
perform in the wake of tornadoes, in the wake of floods, in, 
shall we say, natural disasters, natural attacks, so to speak, 
on our State.
    Now, in the wake of September 11, I guess we have all been 
searching for a formula with which to, or a key to unlock the 
secret of how we ``defend our homeland.'' We have been 
struggling, quite frankly, with the things that you have 
already articulated. It does seem to me that the big bugaboos 
here in terms of homeland defense are not uncommon to other 
areas of our defense, that is, coordination, cooperation, and 
communication, none of which is rocket science.
    But it does seem that, particularly at the Federal level, 
there is a great inability to go outside one's turf, to share 
information, to coordinate operations, to communicate, and so 
forth. We see this, and I am painfully aware of it because the 
CDC is located right there in Atlanta, we see this with the 
whole anthrax threat here, where once the FBI gets on the 
scene, they declare it a crime scene and, in effect, confiscate 
the evidence, shut it down. They send their anthrax samples to 
Fort Detrick, Maryland, not to the CDC, and that has put us in 
several binds from time to time.
    There are two cultures. Just for instance, CDC is designed 
to, shall we say, communicate openly to the public all the 
time, to local and State health departments, and share every 
bit of information they have got and tap the great resources 
there of the 8,000 people that they have and say, Professor so-
and-so or Dr. so-and-so is the expert on this and talk to him, 
whereas the FBI does not share any information with anybody, 
ever. I mean, there are two cultures. Both are right in their 
own setting, but to try to get them both to attack the same 
problem is like oil and water, and we have seen that.
    Your point about turf walkers, I have never thought about 
FEMA in that regard but maybe that is what we are talking about 
here in terms of homeland defense. Maybe we already have an 
agency with budgetary authority, with troops in the field, with 
some background and training in response to emergencies and 
maybe we already have basically a homeland defense agency. It 
is called FEMA, expert in doing the very kind of things, 
coordination, cooperation, communication, that we are so 
lacking in and have struggled to bring about by other means.
    I do not really want to put you on the spot, but do you 
think we ought to seriously look here in Washington, all of us, 
at maybe either using the FEMA model or using FEMA in some way 
as an anchor or using this wonderful agency that works, and our 
mayors and our governors out there all, I think, would swear 
pretty much by it.
    They have got a central command post. I have been down to 
the central command post when a hurricane was moving onto the 
Southeast coast of Georgia. I mean, I went in there and it was 
like, in effect, a Pentagon war room. I mean, they had it. They 
had it nailed. They were on top of it and they were 
coordinating and they were cooperating and they were 
communicating.
    Anyway, do you think we have the kernel of a homeland 
defense agency in FEMA and maybe just maybe build on that?
    Mr. White. I would suggest to you that is where they came 
from. It was called civil defense, and that is what that was.
    Senator Cleland. Yes.
    Mr. White. It was just a different time. It was just a 
different, smaller threat. I just do not, and maybe it is from 
being a Southern boy and just kind of being in Tennessee all 
the time, I just do not see the difference between an Oklahoma 
City and a New York. I do not see a difference between a 
hurricane that wipes out all of Florida and New York. It is 
done by somebody else. It is done by something different. But 
the consequences are the same. The recovery is the same.
    You still have to provide the people with funding. You have 
to provide the local government the capability to do it. You 
have to assist them, stand back and let them work as far as 
they can. Then the State comes in and helps them. If I cannot 
do it, then FEMA comes in and helps me. Then that is the way we 
get things done.
    It would seem to me that Governor Ridge would be very well 
served by looking at some of the things that FEMA has done. I 
have been around a long time with FEMA--FEMA has not always 
been what it is today. But I would say to you that today is a 
model of something that will work, a model of how to get money 
to local governments and get it to them fast, a model of how to 
respond to a disaster and how to get information to governors, 
to the people on the front lines.
    Do I think that you will ever solve the security problem? 
No, sir. It will not happen because they are not going to tell 
you.
    Senator Domenici. Could you repeat that, please?
    Mr. White. I said, do I think that you will ever solve the 
security problems between the CIA, the FBI, or NSF? No, because 
they do not talk to each other now and are not going to talk to 
you. If they talk to you, then you know as much as they know 
and you have got to have it for the funding. In other words, 
there is always going to be a black program. That is the way 
they get their money.
    But you have to have a turf walker, someone that is not 
going to offend or not try to take over somebody else's job and 
to get the money out there, and also gently hold them 
accountable. That is very important, too, because OMB is going 
to send an auditor 26 years from today and want to know where 
that piece of equipment is, and you say, ``I do not know where 
it is at.'' Well, guess what, you are going to pay for it 17 
times. [Laughter.]
    So you have got to have also, then, accountability. The 
Department of Justice has learned their lesson. Out of the $1 
million that they gave out in Tennessee, they cannot find one 
piece of equipment. They did not bother to know that it was 
disposable equipment. Once you used it, you had to throw it 
away. We had not figured that out yet. But they will when OMB 
gets through with them.
    Senator Cleland. Before we go to Mayor Morial, who wants to 
say something, is it not true that in terms of this emergency 
preparedness, we will call it, the old civil defense operation, 
that there is an established protocol already, that when the 
popcorn hits the fan, all the players of the team know exactly 
what their responsibility is.
    For instance, something hits the State of Tennessee or 
Georgia. There is a protocol there. Ultimately, the governor 
asks the President, I guess, to declare X area a disaster area. 
The moment the President does that, there is an established 
protocol for money, for small business loans, for emergency 
assistance. I mean, people are on the plane. Things are 
happening right then, and I have seen it happen.
    The problem with, say, this bioterrorist attack we just 
went through, we found that there was no real established 
protocol. The Postmaster General testified he did not 
understand the protocol about what happened when he got hit 
with an anthrax scare, so I think that is something we could 
look at. Mayor Morial.
    Mr. Morial. Thank you, Senator Cleland. I could not agree 
with Mr. White more. FEMA does an excellent job. We have had 
great experiences with FEMA in connection with weather 
emergencies, but I wanted to make this point. FEMA is a 
response agency. Homeland defense includes prevention, working 
to prevent future attacks, developing intelligence and 
coordination.
    FEMA's role and the role of most successors to the old 
civil defense systems that exist are setting up the appropriate 
response once you have an emergency situation, and I think in 
your conversations, in your considerations, and in your 
deliberations, we would ask you to also keep in mind the need 
for a system of prevention, resources for prevention. I think 
that is where I hope Governor Ridge, the Office of Homeland 
Defense, will focus and will go.
    Let me give you an illustration. We are preparing right now 
for the Super Bowl, and in our preparations, we have, in 
effect, divided our preparations into two components. One is 
prevention. What do we do with traffic, with people, with 
security, with special events, with deployment of police, fire, 
and EMS officials? The other is, what are the protocols to 
respond in the event there is X type of problem over here or Y 
type of problem over there?
    Both components have to be adequately addressed, and I 
would think that the FEMA model, because they are an excellent 
coordinator, they work with State and local government, they 
try to marshal resources, might be a model that could be 
employed on the prevention side, too. Whether it could be 
carried out by FEMA, I do not know. Whether it needs to be 
carried out by the Office of Homeland Defense with the 
appropriate staffing and personnel, that would be a 
consideration. But I think that local government is acutely 
aware of both components of the challenge we face.
    Chairman Lieberman. Thanks, Mayor Morial, for a very good 
statement. I would say, for the record, you were kind enough to 
refer to the bill that Senator Specter and I have put in to 
create the Homeland Security Agency, give it budget authority, 
cabinet status. We are building here on a lot of work that has 
been done, particularly by the commission headed by Senators 
Rudman and Hart.
    But in our bill, we have actually three directorates under 
the Secretary of Homeland Security and it follows your model. 
Prevention, in our case, we had one called protection, which 
was the ongoing business of protecting critical infrastructure, 
and then response, and the vision we had in the response, FEMA 
is really the heart of it because it does such a great job, as 
Mr. White said.
    Senator Domenici, thanks for being here.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Thanks very much. First, Mr. Chairman, I 
really do compliment you for holding this hearing.
    Chairman Lieberman. Thank you.
    Senator Domenici. I am not quite sure how we are going to 
go beyond the hearings into changing things that are 
desperately in need of change, but we have got to start 
somewhere, and it seems to me that as we talk up here, it 
becomes quite obvious that one of the reasons we are going to 
have a hard time getting ourselves into a different management 
mode on all the fronts we have been discussing is that there 
are great conflicts of interest. There is no committee with 
jurisdiction to solve it and come up with a bill. In a subtle 
way, all the committees are going to want to keep some of their 
jurisdiction even if they are not quite sure what it does for 
the country.
    If it is something that they are charged with doing, you 
are going to have difficulty--if you perceive in this Committee 
under your leadership and our good friend who used to be 
Chairman, what you ought to do. I am not sure that you will not 
have to go to so many committees that it is going to be hard to 
get the job done. I can tell you that at every level that has 
to do with security, our country is in a big muddle and we did 
not do much about it before this terrorist attack.
    Will we be able to do something about it? I think the 
President wants to, and that is the starter. I think he put in 
a governor who has obviously managed some big things. Now the 
question is, what is his authority? Frankly, if we try to draw 
something to set out his authority, I am very concerned that it 
would take us forever to get the legislation done and the 
claims on jurisdiction would be three or four committees.
    But nonetheless, the President has started out right by 
saying we need a new level of defense and it is homeland 
defense. We should all remember that if homeland defense is 
important, we ought to know how much we spent on the defense of 
our Nation without due consideration to homeland. We spend over 
$325 billion to defend ourselves in this world we live in.
    I believe we are going to have a very large budget for 
homeland defense. It may not be very large now, but we will be 
spending a lot of money on homeland defense once it gets 
coordinated right. I hope that the precursor is that we have 
got to find out how to organize it. But we have got to spend 
some money, there is no question about it.
    I want to say to all of these witnesses: I very much 
appreciate, as one Senator, your coming and the excellent 
understanding of the problem from the local level. Sometimes we 
just keep talking to ourselves. It is really good that that 
stops and somebody that is out there experiencing it gets into 
the loop. You all have been in that loop today and you are 
going to stay in it in trying to help us get our job done.
    I want to personally thank Javier Gonzales, the County 
Commissioner who came up here and has a national role. I thank 
you very much for the time, the effort, and what you have said.
    I have a statement that is in the record, but I would like 
to just talk for a minute to the Committee about some things. 
In 1996, quite a while ago in terms of reference to the towers 
being bombed, almost an eon before, we passed a piece of 
legislation up here. Its nickname is Nunn-Lugar-Domenici. It 
included a domestic homeland initiative where the U.S. 
Government attempts to help first responders.
    Last year, we completed 120 cities, Mr. Chairman, 120 
American cities, and some of you are aware of this. Those 
cities came together under Nunn-Lugar-Domenici and prepared to 
communicate among themselves and organize for the eventuality 
of a mass accident, either nuclear or a huge accident that 
occurs because of nature. Now I think we have to decide to take 
a look at that legislation and see, in light of terrorism, does 
it do the right thing?
    I think we did a pretty good job, considering it was so 
many years ahead of things to set up a first responder 
organization and communication. It just about does your three 
C's. It does not do it for everything, but in a limited way. 
Frankly, Mr. Chairman, it suffered after it was passed from the 
typical difficulties that anything in America that is different 
and that is preventative and that is ahead of the time suffers.
    We could not get the administration to decide who ought to 
run it, so we put the Department of Defense in the first time 
through. That caused all kinds of flaps, with concerns that the 
Department of Defense was going to come into cities and help 
them prepare their first responders. It took 1\1/2\ or 2 years 
and we finally said, let the Department of Justice do it. The 
Department of Justice does not like to do it, but they do it. 
Now, it is getting pretty healthy because we spent $667 million 
on that legislation in the year we are in now, a pretty healthy 
chunk of money to help cities and institutions prepare 
themselves for communication, and for first responder 
efficiency, then firemen will know what their job is and the 
police will know theirs.
    As a matter of fact, fellow Senators, I am not sure that we 
know the impact of that program on New York City, but it is 
commonly thought that they were much better prepared because 
they had for 2 or 3 years been annually preparing their 
responder organizations under the Nunn-Lugar-Domenici Act and 
had trained them, got them ready, with much better 
communication capacity and skills.
    It might indeed be wise for our staff, bipartisan here, to 
take a look at that legislation. They should see if maybe you 
can build on it in a way that would expand what it does so that 
it will do more of the things that Mr. White (and I greatly 
appreciate your observations) and Mr. Sheirer and all of you 
have given us.
    Let me close by saying that Tom Ridge has one of the 
toughest jobs anybody could have. How we are going to be able 
to shake these organizations that have been complacent and, 
when we give them money, for them to do the right thing with it 
and get it spent on the right things is not going to be easy. 
But I also think that this Committee under your leadership has 
a rare opportunity to let people know what we do and what you 
can do. You have very broad jurisdiction in this area.
    I close by telling you that we were not capable in this 
country, prior to this big accident of clearing Federal 
employees for jobs in secret establishments. Sometimes it took 
2 years. I can tell you, for the record, that in my State, for 
jobs at Los Alamos National Laboratory, there are many great 
scientists hired and, in a sense, put in a bullpen.
    In other words, they are hired but they are not hired in 
that they cannot work in secure areas of the laboratory because 
they are awaiting their clearance. And sometimes, they meet me 
on an airplane and they say, ``Well, I sure would like to be 
working at the job I was hired to do. I am so-and-so. Here is 
my expertise. But just so you will know, I am not working at 
that job. I draw a paycheck, but it has already been 12 months 
and they have not cleared me.'' Is that not pathetic?
    Now we have reason to do a lot of these things better, just 
to ask the administration, how do you fix that? What is a 
reasonable time? Do you think it is 6 months? Surely if you 
have machinery and equipment, you ought to find out in 6 months 
whether a Ph.D. that came from Georgia Tech in research in 
nuclear this, that, or the other, can be cleared as an American 
to work on nuclear weapons? Why 2 years?
    And this is the problem everywhere you go. All the things 
we are going to try to solve are going to run into these kinds 
of administrative nightmares. But now, it is life or death, so 
it may very well be that we will change. If we do not change, 
we are going to have another one of these events and everybody 
is going to say, ``Why were we not informed?'' And somebody is 
going to say, ``Well, we should have been. Why did so many 
people die? Well, if we had just been able to do this, they 
would not have.'' And somebody will say, ``Well, we know how to 
do that. Why did we not do it?''
    So I urge that you and the Ranking Member decide what your 
role is going to be. I, for one, do not have a lot of time, but 
I will pledge to you that I will join you if you undertake in a 
major way how to put this together and challenge these other 
committees who want to continue to say they have the power and 
the jurisdiction. We want somebody to do something. Is that not 
what you want?
    Chairman Lieberman. Amen.
    Senator Domenici. I do not think you want to sit around and 
have hearings that people have rave reviews on because we got 
the facts. I think you want a result, and we are not getting 
results. In fact, it is terrible. Some would have to say, we 
may get results because we were bombed in our homeland and we 
will never have the same America because nobody can any longer 
kid anyone. We could have--in your hometown, or in your State, 
Senator--a major terrorist event within the next couple of 
weeks. Who knows.
    We did not think of that 2 years ago. If you brought up a 
bill to spend money to prevent that, people around here would 
have said we were crazy. Nobody is going to do anything to 
America. Well, that is over with, is it not? I mean, they can 
do anything. In fact, I am worried about just which is their 
next target. I cannot believe they are not going to do 
anything, except we have taught a few of them a lesson. They do 
know we will fight.
    Chairman Lieberman. That is right.
    Senator Domenici. So I thank you, and again, I will read 
your testimony and I will just close by telling you, there is a 
piece of equipment manned by scientists. It is called NISAC, 
National Infrastructure Simulation and Analysis Center. I must 
tell you, it is the most phenomenal production in terms of the 
infrastructure of America that you would ever think we would 
do.
    The scientists at two nuclear laboratories took their big 
computers, the ones that have more capacity than anybody ever 
thought. They have put a little bit of the time into NISAC. 
They now are trying to put together a center where they can 
apply this equipment in a way you would not believe, Mr. 
Chairman, to all of the infrastructure of America of any 
significance. The NISAC computers will permit you to relate one 
piece of infrastructure to another, so that if a big dam is 
blown up here, what is the consequence to the country? It will 
tell you now. And now it needs to be continued year by year to 
be a predominant fixture for information dissemination or 
prevention by doing things that this software will tell you.
    I know you will wonder, where has this been, this wonderful 
equipment? I would tell you, it has been rather difficult to 
get it funded. Now, somebody in the administration has agreed 
that it is a whopping great, great thing. Still, I am not sure 
that the $20 million is going to be appropriated for it to 
become part of the civilian network of America, but I think it 
will. Anybody that will listen and see it will know that the 
greatest scientists in the world have pulled something out of a 
hat again for us. With it, we will know so much about the 
relationships of one piece of infrastructure to another that it 
is almost unimaginable. I am very grateful that some Senators 
helped me do this and I did not come to all of you because it 
was moving along.
    You will know, all of you and Mr. White, when this is all 
set up. If we can then establish who is entitled to the 
information, it will be an incredible thing for the counties 
and cities and States to be able to look at their 
infrastructure and see what are the risks, which things are 
really dangerous, what is the consequence if they get this, to 
our State on this? I think it will be exciting for everybody. 
Thank you, Mr. Chairman.
    [The prepared statement of Senator Domenici follows:]
                 PREPARED STATEMENT OF SENATOR DOMENICI
    Mr. Chairman, I want to thank you for holding this hearing as your 
Committee continues to explore issues associated with Homeland 
Security. The focus of this hearing, on local roles, highlights the 
critical contribution from the first responders and local jurisdictions 
who represent our first line of defense against terrorist actions.
    I'd like to add my welcome to Javier Gonzales, Commissioner from 
Santa Fe County. Thank you for traveling here for this important 
hearing.
    In 1996, the Nunn-Lugar-Domenici legislation focused on two key 
issues, stopping proliferation of weapons of mass destruction, and on 
domestic preparedness in case these weapons are used. That bill charged 
the Department of Defense with responsibility for training ``First 
Responders'' for potential attacks. Later the responsibility for that 
program moved to the Department of Justice.
    I'm pleased that 120 cities have received this training. I'm told 
that the training in New York City contributed to their ability to 
respond to the events of September 11.
    That 1996 legislation was a good foundation, but we in Congress 
need to build upon it. In fact, the exercises--both practice ones and 
unfortunately in response to real attacks--have highlighted areas that 
need additional legislative focus.
    For example, it is clear that better coordination is required for 
all domestic preparedness efforts. I anticipate that Governor Ridge 
will provide that coordination. I'm pleased to note in the testimony of 
Javier Gonzales that the National Association of Counties has been 
working directly with Governor Ridge toward creation of a State and 
Local Advisory Committee within his Office. I support that proposal.
    It is also clear that follow-up training is needed after the 
initial exercises for the first responders. Certainly those exercises 
are important. But, there has not been a mechanism or program for 
further training and ensuring the sustainability of first responders' 
capabilities.
    And finally, it is abundantly clear that our public health 
infrastructure needs significant enhancement to respond to the range of 
risks presented by terrorism.
    On a local note in New Mexico, I'm proud of the role played by New 
Mexico Institute of Mining and Technology with their first responder 
training program.
    Mr. Chairman, the original Nunn-Lugar-Domenici legislation provided 
the foundation for training of first responders for incidents involving 
weapons of mass destruction. I stand ready to work with you and this 
Committee as legislation is crafted to build on that vital foundation.

    Chairman Lieberman. Thanks, Senator Domenici. Thanks for 
your offer of help. I think we have got a job to do here and it 
is an important one. The program you mentioned at the end is 
exactly what we should be doing, bringing technology to bear on 
this new problem.
    Thanks also for the Nunn-Lugar-Domenici law, because after 
September 11 when people said, why did the Federal Government 
not do anything, in fact, we had done some things, thanks to 
leadership like that. We did not do enough. We did not expect 
the attacks in exactly that way, but it helped.
    We do have to move on to the next panel, but while you were 
talking, I saw Mr. Sheirer looking for recognition. I assume 
that you wanted to talk about your experience under the Nunn-
Lugar-Domenici law.
    Mr. Sheirer. Under Nunn-Lugar-Domenici, in May of this past 
year, we had a tabletop exercise called Red X, which was a 
bioterrorist incident in New York City where we had about 75 
different agencies and hundreds of observers up at the EOC. The 
mayor came and participated, and 5 minutes into this exercise, 
you forgot it was an exercise with our mayor. We virtually 
quarantined Manhattan and we went through this step by step 
what we would do.
    What was interesting in the critique of it right 
afterwards, some people criticized us for closing the city, 
Manhattan, so quickly. It was interesting to try and reach out 
to them after what happened with both the bombing on September 
11 and the anthrax to see if they had changed their critique in 
any way.
    But the second part of that same drill was the TriPOD 
exercise, the point of dispensing, which had a direct impact on 
our ability to deal with the anthrax situation and how we 
handled those people that were exposed. Thank you very much. 
That bill has done exactly what it was intended to do.
    Chairman Lieberman. That is great. Go ahead, Mr. Sheirer.
    Mr. Sheirer. One other observation, a very quick one. I had 
fully expected that we were going to run into the turf problems 
somewhere along the line as we got further and further away 
from September 11 and I am happy to say, to this point, with 
the help of FEMA, with the help of the State Emergency 
Management Office, and with every agency, we have had a few 
bumps in the road, but nothing, absolutely nothing that would 
deter us from getting our job done in terms of the September 11 
incident, funding all the local ones we can and recovery from 
that, the anthrax incident, and Flight 587. It has just been a 
tremendous cooperative effort from the agencies, and where you 
had expected some problems, they have not come up.
    Chairman Lieberman. Thanks for that good report, Mr. 
Sheirer.
    You know, one of the things that I think we might most 
readily do in this Committee is to lead an effort to expand 
Nunn-Lugar Domenici. If we continue the military analogy, and 
it is not far-fetched at all in this case, it is training 
exercises that make our military what it is and helped us to 
perform as successfully as we have thus far in Afghanistan. The 
truth is, every State, county, and metropolitan area in the 
country today ought to have the support that you got under 
Nunn-Lugar-Domenici to carry out training exercises.
    Mr. Sheirer. Exactly.
    Chairman Lieberman. Thank you all very much. You have been 
an excellent panel, very helpful. I really want to ask that you 
stick with us and continue to be engaged with us. We are going 
to share whatever products we have of this set of hearings and 
we are really going to welcome your response because we want it 
to work from your level of government.
    Thanks very much. Have a good day.
    I will call the second panel now. I want to indicate that I 
have to go off to a meeting of the Education Conference 
Committee and I am very grateful that Senator Cleland has 
agreed to Chair the hearing in my absence. I hope to return as 
soon as I possibly can, certainly before the hearing is over.
    Senator Cleland, thank you very much.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland [presiding]. Thank you very much, Mr. 
Chairman.
    As our second panel is taking their seats, I would just 
like to provide an opening statement. This hearing is, I 
believe, one of the most critical hearings we can have on the 
subject of homeland security because it gets at an issue that 
resonates from almost every major era of our Nation's history, 
the issue of integrating the role of the Federal Government 
with that of State and local government.
    Philosophically, I think it is fair to say that the roots 
of America lie in the ideal of giving back some autonomy to 
State and local governments, consistent with the efficiency, 
coherence, and equity necessary to ensure a successful response 
to the challenge at hand.
    The issue we are here to discuss today of securing our 
homeland against a diverse range of potential challenges is as 
complex as any I am aware of in our Nation's history. The scope 
of the attacks that are possible and that we have already 
witnessed cries out for standardization and economies of scale 
that are the hallmark of a strong Federal response. At the same 
time, the diversity of geography, of population density, and of 
infrastructure that exists in our Nation at the present time 
makes it impossible to envision a one-size-fits-all solution.
    For these reasons, it is critical that we accurately survey 
and monitor the capabilities available at State and local 
levels and tailor Federal resources to provide complementary 
capabilities that ensure every region of our Nation has the 
supplies, personnel, and infrastructure needed to meet an 
acceptable benchmark of care for the entire population.
    To this end, I am extremely proud that my home county, 
DeKalb County in the State of Georgia, was the very first 
county in the country to establish an independent Office of 
Homeland Security. I note that several witnesses have cited the 
need for additional funding to assist first responders in their 
efforts to prepare for incidents involving hazardous materials. 
Your testimony could not come at a better time.
    I will introduce this week the Heroic Emergency Response 
Operations, or HERO Act of 2001. This legislation will allow 
the Department of Transportation to access $15 million in 
surplus funds that have accumulated in the emergency 
preparedness grants program due to appropriations restrictions. 
The purpose of the bill is to disburse the surplus funds to 
State and local governments for hazardous material training of 
the men and women who are at ground zero during emergencies 
involving hazardous materials.
    The HERO Act would also authorize $1 million of the surplus 
to go to the International Association of Fire Fighters to help 
fund the specialized training that the IAFF provides free of 
charge to local fire departments. According to the IAFF, this 
will quadruple the number of fire fighters who receive this 
HAZMAT training.
    I call on my colleagues in this Committee and in the Senate 
to cosponsor the HERO Act of 2001.
    I have introduced several other measures to enhance the 
coordination and integration of our response to likely attacks 
and I have attempted to prioritize resources to those entities, 
areas, and infrastructures that have the potential to provide 
the greatest enhancements against the most likely threats.
    The Public Health Emergencies Accountability Act, 
introduced just last month, puts in place a procedure that 
allows clear assignment of responsibility in cases where the 
public health is threatened. It further mandates the exchange 
of information between Federal entities primarily responsible 
for public health, such as the CDC, and those primarily 
responsible for countering criminal and terrorist activities. I 
have and will continue to advocate for increased funding for 
the CDC, an organization absolutely critical to our national 
capability to sustain the integrity of our society in the event 
of a significant biological attack.
    I suspect this hearing will highlight once again the need 
for greater coordination. Local officials in my own State have 
told me that they need a better understanding of what resources 
they can expect from the Federal Government in a given 
situation. They have also identified the need to be buffered 
from the unintentional secondary effects of Federal actions, 
such as the loss of key personnel from local public health, 
police, and fire organizations caused by the call-up of the 
National Guard.
    To provide clarity on these issues, I will solicit the 
views of our witnesses, either directly or for the record, 
regarding what is needed to provide an adequate level of 
response capability.
    I would like to thank the Chairman and Members of the 
Committee for their attention today, and now I would like to 
introduce our witnesses here.
    Chief William Berger is President of the International 
Association of Chiefs of Police. Chief Berger was named the 
Chief of Police in North Miami Beach, Florida, in 1989. His 
previous experience includes 15 years with the City of Miami 
Police Department. He joined the board of the International 
Association of Police Chiefs in 1995.
    Joseph Tinkham, II, is Commissioner, Maine Department of 
Defense, Veterans, and Emergency Management. General Tinkham 
serves as both the Adjutant General of Maine, commanding the 
Maine Army and Air National Guard, and is the Commissioner of 
the Maine Department of Defense, Veterans, and Emergency 
Management.
    Dr. Michael Caldwell is Dutchess County Commissioner of 
Health, here on behalf of the National Association of County 
and City Health Officials. Dr. Caldwell became Commissioner of 
the Dutchess County, New York, Department of Health in 1994.
    Michael Crouse is Chief of Staff for the General President 
of the International Association of Fire Fighters. Mr. Crouse 
is a veteran fire fighter and former District Vice President 
for the International. He is here on behalf of IAFF General 
President Harold Schaitberger.
    Senator Collins asked that Mr. Tinkham's introductory 
statement go last so she has time to return from another 
hearing, so we will go to Chief Berger now, if you will. We are 
glad to have you.

      TESTIMONY OF CHIEF WILLIAM B. BERGER,\1\ PRESIDENT, 
         INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE

    Mr. Berger. Good morning, Senator Cleland. How are you, 
sir?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berger appears in the Appendix on 
page 118.
---------------------------------------------------------------------------
    As you know, the IACP is the world's oldest and largest 
organization of police executives, with more than 19,000 
members, over 100 countries being represented. Our mission 
throughout the history of our association has always been to 
address urgent law enforcement issues, develop policies, 
programs, and training, technical assistance, and to help with 
whatever problem may be contemporary.
    As I appear before you today, combating terrorism looms as 
our most urgent issue facing the membership and, of course, all 
our communities. The initial response of law enforcement and 
other public safety agencies in New York, Virginia, 
Pennsylvania, and throughout the United States to the terrible 
incidents and events of September 11 was outstanding, and I can 
assure you that the actions of the brave men and women of the 
New York City area police departments would be duplicated by 
any of the more than 16,000 law enforcement agencies in the 
United States today because that is what we do.
    After September 11, Federal, State, and local law 
enforcement agencies immediately began working together in a 
massive effort to respond to the attack and to prevent 
additional attacks. However, in the weeks and months that have 
followed, it has become apparent that the critical partnership 
between Federal, State, and local law enforcement is being 
hindered by difficulties in cooperation, coordination, and 
information sharing. This, of course, is unacceptable.
    Now at a time when communities across the United States are 
turning to their law enforcement agencies for guidance and 
protection, we must all do what we can to ensure that law 
enforcement agencies work together and overcome those 
artificial walls that sometimes divide us. The IACP is 
certainly not alone in this belief. The Federal Bureau of 
Investigation and other Federal law enforcement agencies have 
also realized how critical working with State and local law 
enforcement is to the success of their efforts and they have 
taken several positive actions to make this happen.
    In addition to addressing this critical information sharing 
issue, there are other steps that the Federal Government can 
take to ensure that State and local governments and law 
enforcement agencies are active and effective partners in 
homeland security. Although the primary mission of law 
enforcement agencies has been to ensure public safety, the 
events of September 11 have dramatically and significantly 
changed the focus of law enforcement operations.
    Suddenly, agencies and officers who have been trained and 
equipped to deal with traditional crimes are now focused on 
apprehending individuals operating with different motives, who 
have different objectives and who use much deadlier weapons 
than traditional criminals. As a result, law enforcement 
agencies and officers will need new training, new equipment to 
meet this new threat.
    For example, State and local officers would be greatly 
benefited from training on certain topics, which are, one, 
recognizing possible threats to public safety and terrorist 
tactics; two, field interrogation techniques to better enable 
them to recognize and respond to terrorist attacks; three, 
Federal immigration law, sources, and documentation; four, to 
respond to biological, chemical, nuclear incidents; and five, 
detecting false identification documents, such as driver's 
licenses, passports, and visas.
    As for the equipment needs, it has become clear that law 
enforcement agencies will need to obtain protective clothing 
and isolation equipment for those critical first responders.
    Radio spectrum, I know it has been commented about here but 
it is a top priority. As demonstrated on September 11 and 
during the numerous other large-scale incidents that have 
occurred in the last several years--Hurricane Andrew, which I 
was involved in in South Florida, Hurricane Hugo--there has 
been a critical need to address communications problems caused 
by limited radio spectrum available for public safety use. 
Because the spectrum is currently in use by public safety 
agencies, it is both fragmented and limited. Agencies from 
different and even neighboring jurisdictions are many times 
unable to communicate with each other. This communications 
failure obviously complicates the ability of law enforcement 
and other public safety agencies to coordinate an effective 
response in emergency situations.
    The IACP urges the Congress and FCC to take immediate steps 
to ensure that public safety agencies receive additional radio 
spectrum allocations that is sufficient to provide for 
interference-free and interoperable communications between 
emergency service personnel.
    Threat alert protocols need to be established. Finally, a 
last area of concern I would like to address before I conclude 
this matter in which the Federal Government issues terrorist 
threat alerts. After having conversations with Governor Ridge 
this Saturday and FBI Director Robert Mueller, it has become 
apparent that the establishment of an effective notification 
system is imperative. While State and local law enforcement 
agencies appreciate receiving threat advisories from the 
Federal Government, the vague nature of the information and the 
lack of clear response protocols often leave State and local 
law enforcement executives uncertain as to what, if any, action 
should be taken. This uncertainty is especially troublesome at 
a time when communities across the Nation are turning to their 
law enforcement agencies for both guidance and protection.
    Therefore, the IACP believes that the Office of Homeland 
Security, in conjunction with the FBI, the Department of 
Justice, and representatives of both State and local law 
enforcement, should immediately address this area and develop 
clear and concise protocols for issuing threat alerts and 
providing guidance for law enforcement responses.
    At our recently concluded annual conference in Toronto, the 
IACP leadership addressed this critical issue and discussed the 
creation of a national threat level and law enforcement 
response protocol. This protocol concept, modeled after the 
U.S. military threat alert system, calls for the development of 
graduated alert systems that would categorize the threat level 
confronting the United States and provide guidance as to what 
law enforcement actions would be appropriate for each threat 
level.
    In order to facilitate the discussion of this concept, a 
chart outlining the protocol framework is attached to the 
record of this discussion. It is the belief of IACP that such a 
system would provide State and local law enforcement executives 
with a clear understanding of the threat confronting their 
communities and the actions required that their agencies must 
take in this response.
    The events of September 11 have opened a new chapter on 
terrorism for all governments and their law enforcement 
agencies throughout the entire world. If we are to be 
successful in our efforts to combat terrorism, we must work 
together, efficiently and effectively. We can no longer let 
affiliations or jurisdictional squabbles interfere with our 
mission of protecting our most sacred communities, the citizens 
we serve who expect in no other fashion and actually demand it 
from us.
    I thank you on behalf of the IACP for the opportunity to 
appear here this morning, and, of course, later on be glad to 
answer any questions.
    Senator Cleland. Thank you very much, Chief Berger. We will 
wait for questions until everybody finishes, but I cannot help 
but articulate that I would like to hear you expound a little 
bit more on the spectrum problem. As an old Army signal 
officer, one radio not talking to another, I cannot raise you, 
and the problem is always on the other end. I think probably in 
metropolitan Atlanta, what have we got, 68 police departments? 
I would be surprised if they were all on one frequency at any 
given moment.
    Mr. Berger. They are not.
    Senator Cleland. That is just an example, but thank you for 
that and we will get into that a little bit more. Also, I am 
fascinated by the, shall we say, adopting the military model, 
threat condition alpha or threat condition beta or 3-2-1 or 
whatever. You are right. When a Federal official just says, 
``Now you all watch out there, now, you hear. Good luck.'' I 
mean, what are you supposed to do with that? You are right, so 
we can get into that.
    Mr. Tinkham, we are going to wait on Senator Collins, if 
you do not mind.
    Dr. Caldwell, welcome.

TESTIMONY OF MICHAEL C. CALDWELL,\1\ M.D., M.P.H., COMMISSIONER 
 OF HEALTH, DUTCHESS COUNTY DEPARTMENT OF HEALTH, NEW YORK, ON 
 BEHALF OF THE NATIONAL ASSOCIATION OF COUNTY AND CITY HEALTH 
                       OFFICIALS (NACCHO)

    Dr. Caldwell. Thank you, Mr. Chairman, Senator Cleland, and 
Members of the Committee. I am Dr. Michael Caldwell. I am the 
Commissioner of Health for Dutchess County in New York, the 
home of Franklin Delano Roosevelt. Thank you for inviting me to 
speak here today on behalf of the National Association of 
County and City Health Officials, which represents the 3,000 
local public health departments across our country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Caldwell appears in the Appendix 
on page 129.
---------------------------------------------------------------------------
    Are we prepared for bioterrorism as a Nation? Not nearly 
enough. Though we have made progress and learned important 
lessons in the last few years, we have a long way to go to be 
able to detect and respond to an act of bioterrorism quickly, 
prevent the spread of disease, and save as many lives as 
possible. Bioterrorism preparedness requires a combination of 
the resources and skills of public health with those of other 
public safety and emergency preparedness disciplines.
    While public health preparedness is a shared joint 
responsibility between the Federal, State, and local 
governments, we believe the planning must focus at the local 
level and on the local level.
    We have identified four core capacities for public health 
preparedness for bioterrorism. We need to increase surveillance 
and epidemiologic investigation capacity. We need to increase 
our laboratory capacity. We need to increase our communications 
capacities. We need to increase our planning and response 
capacities.
    I can tell you, as a local Commissioner of Health in New 
York State, that I typically get disease reports that are 2 and 
3 years old. That does very little to help me in my planning 
for today or the future. We need to develop new data systems 
that give us real time data of emerging diseases, not just the 
diseases but the surveillance of symptoms which might uncover 
patterns of disease or types of diseases. Rather than just 
giving me a report with the name already, I want to know what 
the symptoms are, because if we see patterns across the 
community, that may indicate an outbreak.
    I can tell you, a couple of years ago, we dealt with the 
problem of West Nile virus in crows. We had so many crows 
across New York State, we just did not know what to do with 
them all, and certainly when we sent them to our State lab, 
they did not quite know what to do with them all, either. They 
had to develop quickly a prioritization system. There was not a 
reserve capacity.
    We saw that again with the anthrax problem. We were quickly 
overwhelmed in New York State and across the country with 
environmental samples being sent, from a new pair of blue jeans 
to some kitty litter to other things that you would think are 
maybe not so suspicious, but yet the lab did not have a 
priority process set up. They did not have capacity.
    You have heard of the Health Alert Network. Well, it is in 
its infancy. Only 13 States have all local jurisdictions 
connected. We need to have 3,000 local Health Alert Networks so 
that we can then take this Federal information and give it to 
our localities. Now, do we need one in every health department? 
Maybe not. We need to look at regionalization. But every local 
jurisdiction must be covered.
    What about our planning and response capacity? We need to 
perform routine drills. We have heard this over and over again. 
And once again, they need to be done from a regional 
standpoint.
    Local public health departments and their communities are 
learning that local partnerships between agencies can be built 
and are essential for further progress. But first, these 
agencies must know each other and have planned together well in 
advance. They should not be exchanging business cards of 
introduction during a real crisis, and let me tell you, 
Senator, this, unfortunately, has happened.
    Local surveillance and response systems will not work 
unless we have thoroughly trained professionals to use them and 
those people knowing exactly what to do and knowing what the 
other people do and do not do and have sufficient practice 
doing it in advance. Certain agencies will say, oh, well that 
department does that, and that department says, well, I think 
that department does it, and so you have gaps, and then others 
times you have duplication, where agencies say, no, I do that, 
and the other agency will say, oh, no, I do that, too. So we 
need to work through all of this.
    In Dutchess County, we have been quite busy recently. Yes, 
we were devastated by September 11. The spouse of our mayor, 
Collette LaFuente in Poughkeepsie, was lost in the financial 
district that day. But also, we have been very busy with 
anthrax. Whether it was the worker at NBC Studios who lives in 
Dutchess County that presented to a local doctor and the doctor 
called us up and said, ``What do I do?'' or the father of the 
Eagle Scout who just received a congratulatory letter from 
Senator Daschle and said, ``This letter was dated on October 
15, 2001, the day all the news broke. What do I do with this 
letter?'' We are the natural first responders in a case of 
suspected bioterrorism.
    Your local public health department is on the front line 
with the professionals of this distinguished panel. The local 
public health system finally has emerged as a core component of 
our national security. We are looked to for leadership. We 
coordinate response and communication. We provide information 
to the community and all involved parties. People expect us to 
have action. Get that sample to the lab. What are the tests for 
the lab? They want follow-up. They want to know things are 
complete and accurate.
    You asked me to come here today to tell you what actions 
could be taken by the Federal Government to support our efforts 
of local public health agencies, and I have two answers. One, 
the National Association of County and City Health Officials 
already recognizes that the Senate voted to provide $1 billion 
for State and local public health capacity building and we 
applaud you for that. Thank you. So, yes, we do need financial 
resources.
    But my county executive, William Steinhaus, wanted me to 
send you a message. He said, ``We do not expect the Federal 
Government to pay for everything. There is a fair local share 
and a State share and we are willing to ante up.'' But let me 
tell you that, to date, Dutchess County has not received one 
penny of Federal assistance, nor have 55 of our 58 counties, 
not one penny of bioterrorism or Health Alert Network 
assistance.
    But finally, we need technical assistance and consultation. 
We do not just need a manual with money. We need someone to 
help us, walk us through it. We want the planners from the 
Federal Government to come sit with us at our planning meetings 
and make sure that we are doing it right.
    Overall, we need to strive for a seamless and coordinated 
effort from local to Federal, across agencies at the Federal, 
State, and local levels, and we want to make sure that everyone 
is informed on a continuous basis.
    Finally, my colleagues at local public health agencies 
across the country know that you appreciate the funds that you 
will appropriate for bioterrorism preparedness will be used to 
strengthen our collective local public health infrastructure in 
many other valuable ways, as well. So thank you for helping to 
build a safer and healthier local community.
    Senator Cleland. Thank you, Dr. Caldwell. Several images 
you gave me there, that when an emergency happens, people in 
the business of responding should not be just introducing 
themselves at that point with, ``Here is my card. Call me when 
you need me,'' that kind of thing. This protocol needs to be 
established beforehand. That is a powerful point here in all 
this and we want to go back to that. Thank you very much for 
your testimony.
    I am reading Doris Kearne Goodwin's great Pulitzer Prize 
winning book, ``No Ordinary Time,'' and in so many aspects, the 
book is like reading yesterday or today's headlines. In terms 
of Dutchess County, New York, apparently the only paying job 
Eleanor Roosevelt ever had was working for the Office of Civil 
Defense in New York.
    Mr. Crouse, welcome very much. Thank you.

   TESTIMONY OF MICHAEL J. CROUSE,\1\ CHIEF OF STAFF FOR THE 
 GENERAL PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS 
                             (IAFF)

    Mr. Crouse. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before this Committee today. My name is 
Michael Crouse and I am the Chief of Staff of the International 
Association of Fire Fighters. I am here today representing the 
interest and views of our General President, Harold 
Schaitberger, and the 245,000 men and women professional fire 
fighters, EMTs, and paramedics who are members of the IAFF.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crouse appears in the Appendix on 
page 144.
---------------------------------------------------------------------------
    I spent 17 years as a fire fighter employed by the Federal 
Government protecting U.S. military installations. For 10 
years, I was an IAFF District Vice President representing the 
interests of those Federal fire fighters. Mr. Chairman, exactly 
3 months ago today, our Nation lost 344 of its bravest. For 
fire fighters, it is still September 11. Every time the alarm 
goes off, we steel ourselves to the possibility that we are 
responding to the latest act of terrorism. In the first war of 
the 21st Century, the battle lines are drawn in our 
communities.
    Senator, your home State of Georgia has already suffered 
from terrorism, and unfortunately, there are still many high-
profile targets vulnerable. In this war, we must not only 
support our troops abroad, but also with equal zeal and 
financial resources support our fire fighters who are our 
Nation's domestic defenders.
    The first thing the Federal Government must do to shore up 
our homeland security is to assist local communities with the 
hiring of additional fire fighters and providing all fire 
fighters with specialized HAZMAT and weapons of mass 
destruction training.
    Second, establishing a single point of contact to help 
localities access the various Federal programs can have a 
positive effect on terrorism response.
    The first and foremost need of the fire service is adequate 
personnel. Today, two-thirds of our fire departments operate 
with inadequate staffing. In your own State, Senator, 
jurisdictions such as the City of Augusta and Richmond County 
operate with only three fire fighters per apparatus. Responding 
to a fire with only three people makes it impossible for first 
responding units to comply with OSHA's ``two in and two out'' 
standard for safe fire ground operations and places the lives 
of those fire fighters in jeopardy. Congress would never allow 
our Army to engage in war with two-thirds of its divisions 
understaffed. Incredibly, this is exactly what we are asking 
our local fire departments to do every day.
    That is why the IAFF, along with the International 
Association of Fire Chiefs and several members of Congress have 
strongly endorsed the Safer Fire Fighters Act, S. 1617 and H.R. 
3185. The Safer Fire Fighters Act uses the procedures 
established by the highly successful universal hiring program 
for police officers to place 75,000 additional fire fighters in 
our communities.
    The second most pressing need is specialized training in 
weapons of mass destruction and HAZMAT mitigation response. 
From the vantage point of front-line emergency responders, the 
two crucial components of any WMD or HAZMAT training program 
are that training is conducted in a local jurisdiction 
incorporating the unique aspects of the communities and that it 
uses trainers who are both certified instructors and 
professional fire fighters.
    Training for a terrorism event in your own community allows 
first responders to not only learn the tactics and methods of 
effective response, but it also applies these theoretical 
concepts to concentrated targets in their jurisdictions. The 
value of qualified fire fighters teaching other fire fighters 
is in the benefit gained by shared experiences. The bond of 
common experiences allows fire fighter instructors to more 
effectively communicate the lessons of a training course than, 
say, a person from academia or the military.
    I am proud to note that the IAFF offers training programs 
to fire departments free of charge in terrorism and HAZMAT 
response that have all the elements of a successful training 
program. Our training utilizes skilled instructors who are both 
HAZMAT technicians and certified instructors to train fire 
departments to safely and effectively respond to weapons of 
mass destruction terrorist attacks. Additionally, our program 
conducts the training in the community and incorporates the 
unique aspects of the localities.
    The IAFF's programs were developed in partnership with the 
Department of Justice, Department of Energy, the Department of 
Transportation, the Environmental Protection Agency, and Health 
and Human Services. We have trained tens of thousands of fire 
fighters, both professionally and volunteer fire fighters, 
union and unorganized departments. Especially since September 
11, the demand for our training program far outpaces our 
funding to deliver it. The IAFF can dramatically increase the 
number of fire departments trained if our grants from these 
various Federal agencies are increased.
    We agree that a single point of contact will help 
localities. However, clarifying the lead agency's mission is 
more important than determining which agency should serve as 
the point of contact. While there is unquestionably a need for 
a Federal agency to coordinate the various counterterrorism 
programs that exist throughout the government, we do not 
believe that this lead agency should subsume the functions of 
those other agencies. There is value in several agencies being 
involved in terrorism response.
    For instance, in the area of training, many of the so-
called duplicative programs are, in fact, specialized training 
to address specific needs. EAP, DOT, and DOE all offer 
hazardous material training. However, the EAP program focuses 
on responding to HAZMAT incidents at Superfund sites. Likewise, 
the Department of Transportation's program focuses on the 
unique challenges posed by the release of hazardous materials 
while in transport.
    Last, the Department of Energy's program is specific to 
HAZMAT issues at nuclear facilities. Each setting presents 
distinct challenges and needs to be addressed in separate 
training programs.
    Too often, the fire service has been neglected when it 
comes to planning for and devoting resources to respond to 
terrorism. Our ranks are thin and reinforcements are needed 
quickly. Congress must take the lead by providing the fire 
service with the resources to ensure adequate staffing so that 
we can operate safely and effectively and providing fire 
fighters the necessary training so that we will be able to play 
our role in fighting the war on terrorism.
    Thank you for the time to present our views of the IAFF and 
I will be available for questions.
    Senator Cleland. Thank you very much, and thank you to the 
fire fighters around America.
    You may have heard me a little bit earlier today. I am 
introducing legislation, I think, that might be of some 
interest to you and maybe respond to some of the things you 
just pointed out. It is called the HERO Act of 2001, which will 
allow DOT, the Department of Transportation, to access $15 
million in surplus funds that have accumulated in something 
called the emergency preparedness grants program, accumulated 
due to appropriations restrictions.
    The purpose of my legislation is to disburse the surplus, 
the $15 million, to State and local governments for hazardous 
material training of men and women who are at ground zero 
during emergencies involving hazardous materials. The HERO Act 
would also authorize $1 million of the surplus to go to your 
organization, the International Association of Fire Fighters, 
to help fund the very specialized training programs you just 
mentioned that you provide free of charge, and that now those 
programs, in terms of training, are so much in demand you 
cannot really afford the demand on you. But this would provide 
you $1 million to provide this kind of training free of charge 
to local fire departments.
    This apparently, according to your statistics, will 
quadruple the number of fire fighters who actually receive this 
hazardous material training, is that correct?
    Mr. Crouse. Yes, sir, that is.
    Senator Cleland. Thank you very much.
    Senator Collins is wrapped around an axle in a conference 
meeting on education and she apologizes for not being able to 
return right now for your statement, Mr. Tinkham. Why do we not 
proceed with your statement and know that Senator Collins would 
love to be here if she could and she will make it when she can.

 TESTIMONY OF MAJOR GENERAL JOSEPH E. TINKHAM, II,\1\ ADJUTANT 
 GENERAL OF MAINE AND COMMISSIONER OF THE MAINE DEPARTMENT OF 
           DEFENSE, VETERANS AND EMERGENCY MANAGEMENT

    Mr. Tinkham. Very well. Thank you, Senator Cleland. I am 
Joseph E. Tinkham, II, here from the great State of Maine, and 
I am honored to have been called to testify before the 
Committee today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tinkham appears in the Appendix 
on page 150.
---------------------------------------------------------------------------
    In my professional life, I serve as both the Adjutant 
General of Maine, commanding the Army and Air National Guards, 
and also as the Commissioner for the Department of Defense, 
Veterans, and Emergency Management. Additionally, since the 
events of September 11, I have been tasked by Governor Angus 
King to coordinate Maine's governmental plans and procedures to 
protect our citizens from terrorist attack.
    I appear before you here today in my civilian commissioner 
capacity. I would like to thank this Committee, and 
particularly Senator Collins, for the opportunity to appear 
here today.
    The State of Maine presents those who would wish to attack 
us both a variety of options for illegal entry into our Nation 
and a significant number of vulnerable targets upon which to 
wreak their evil intentions. Maine is virtually an open door to 
the United States. She has, with her rugged, jagged shores, 
over 3,000 miles of Atlantic coastline and is the State with 
the longest international border with Canada after Alaska. We 
have 86 Canadian-American points of entry, most of which are 
unmanned and uncontrolled, save for a sign instructing the 
visitor where to report for Customs processing.
    Our vulnerabilities are many and diverse. Maine has several 
international and domestic airports, including 250 uncontrolled 
airstrips just moments from Canada. We have military bases, to 
include unprotected radar and communications installations. 
There are two major shipyards serving the U.S. Navy and other 
national defense industry facilities in Maine. We have over 800 
dams, 49 of which are large enough to produce electricity. 
There are gas and oil pipelines criss-crossing the State. We 
have a deactivated nuclear power plant on our unprotected shore 
with its spent fuel rods stored on site, and the second largest 
petroleum tank farm on the East Coast is on the shores of our 
most important commercial harbor in the very heart of our 
largest urban population center. The current situation in Maine 
lends the phrase, rich in diversity, a whole new meaning.
    On the evening of September 11, in the Emergency Operations 
Center of the Maine Emergency Management Agency, Governor King 
and I participated in a brainstorming session with our 
emergency response team to identify possible threats from 
terrorist attack. We listed literally hundreds of 
vulnerabilities to terrorism within our borders.
    Over the course of the next few days, I scrubbed this list, 
with the concurrence of the governor, to identify just those 
targets that would result in either a large loss of life or 
environmental catastrophe. We have some 25 vulnerabilities in 
Maine fitting that category.
    We then formed a joint National Guard-Maine State Police 
security team to visit these 25 sites, and in coordination with 
local law enforcement, assess their specific weaknesses to 
terrorist attack. We found that security measures, while 
probably sufficient for any perceived threat as we understood 
them on September 10, were not adequate after September 12.
    We found one site, Senator, that takes some rather nasty 
chemicals and stores them. They transfer them from rail cars 
into a storage facility, and then when the paper industry needs 
these chemicals, they call for them. The fence was downtrodden. 
There was no security guard. Our security team asked the 
manager, ``What do you do in an emergency,'' and he pointed to 
this button on the wall. He said, ``We ring that siren. The 
employees are instructed to run outside, look at the windsock, 
and then run in the opposite direction.''
    On many of these sites, we wish desperately to put in place 
an armed security force, and while we had the manpower and the 
equipment, we lacked the financial resources. We had to satisfy 
ourselves with developing plans to guard these sites, were we 
to receive the intelligence to do so, and regretfully, plans to 
respond, to pick up the pieces and to put out the fires, if you 
will, were the sites attacked without warning.
    I am convinced that lack of monetary resources greatly 
impedes our ability to address real security concerns in Maine. 
On September 11, there was no line in the State or in the 
county or in the local budgets reading ``national defense.''
    And while we in the States take great pains to protect our 
citizens from the natural perils which may befall us, 
protection from attack by a foreign enemy upon our people in 
their homes and in their places of business has for almost two 
centuries been within the purview of the Federal Government. 
Most of us with experience in emergency management were 
convinced, wrongly thus far, as it turns out, that the Federal 
Government through FEMA or through some other vehicle would 
come to our assistance.
    Large special appropriations were being passed, it appeared 
to us, for that very purpose. The U.S. Capitol complex was 
being secured, as was the Kennedy Space Center and Federal 
courthouses. The airports and the airline industries and even 
the concessionaires at Reagan National Airport were receiving 
assistance. Surely, help for the States must be, and I hope is, 
forthcoming.
    What do we require? We need financial assistance, for the 
most part, and the flexibility to tailor its expenditure to our 
unique needs in Maine. We do not need a lot of money in the 
larger scheme of things, something approximating $25 million 
which we would share with local governments to strengthen our 
vulnerabilities.
    In conclusion, I would just like to say that, arguably, the 
best American contemporary artist of the mid-20th Century was 
Norman Rockwell. During the dark days of World War II, he 
painted a series of works he called the Four Freedoms. Perhaps 
you know them. As I recall, the first three depicted freedom of 
religion, freedom of speech, and freedom from want. The last 
painting has an American mother and father gazing lovingly down 
upon their sleeping children tucked safely into their beds. The 
father holds a folded newspaper with a headline from the war. 
The children sleep blissfully, safe and unaware of the terrors 
ravishing much of the world. Rockwell titled this painting, 
``Freedom from Fear,'' and that, ladies and gentlemen, is the 
most basic responsibility of government on every level, the 
responsibility of ensuring that our citizens, our children, can 
live peacefully in their homes, free from fear.
    To that end, we must strive, setting all else aside until 
we have done so, and to that end, we in Maine, and I am sure 
other States, as well, are striving mightily. We have the will 
and the ability to counter most of these terrorist threats to 
our citizens and we are in the best position to do so, but we 
lack the financial resources and the means to gather the 
intelligence on threats from outside our borders. For that 
help, we turn to the solemn and enduring contract we signed in 
Philadelphia in 1787, which was, in great measure, to provide 
for the common defense. It is time we dust off that most 
honorable pledge.
    Again, my thanks to you, Senator Cleland, and to the 
Committee for affording me this opportunity to share my 
thoughts.
    Senator Cleland. Thank you very much, Mr. Tinkham, and we 
thank you for those eloquent words. I cannot help but feel that 
there is a powerful connection between you and Dr. Caldwell. It 
was Franklin Roosevelt right out of Dutchess County that had 
the famous four freedoms speech in 1940-1941 that so impressed 
Mr. Rockwell that he did those four freedoms for the Saturday 
Evening Post, and I have a copy of those in my office, so I 
thank you for reiterating that.
    I have often thought in the wake of September 11 about 
Franklin Roosevelt's comment in 1933 that the only thing we 
have to fear is fear itself, blind, unreasonable fear, and, of 
course, that is what the terrorist deals in, fear, not knowing 
where the next strike or incoming round or whatever might 
occur. That is part of the psychology of dealing with all this, 
but thank you for bringing that up.
    We have Senator Levin with us today. I am glad you could 
join us. We have a distinguished group of panelists here. They 
have all issued opening statements, and if you would like to 
issue an opening statement or make a comment, we would be glad 
to recognize you. Senator Levin.
    Senator Levin. Thank you very much, Mr. Chairman. I made a 
very brief comment before, which was relative to the lack of 
cooperation between the FBI and local law enforcement. I hear a 
lot of it. It was a very pungent comment, the one that I heard 
before which had to do with a local law enforcement guy saying 
he would rather get sticks in his eye than to work with the FBI 
in an investigation, and I have heard that, I am afraid, from 
many local law enforcement people.
    I would like to talk to Chief Berger, perhaps, to start 
with. I have a New York Times article here from November. I do 
not know if you have been asked about this or not, Chief, but 
you were quoted as saying this, ``that there is real 
frustration relative to the cooperation level between local law 
enforcement and the FBI.'' You said that even after September 
11, you were still hearing complaints from fellow chiefs. ``I 
do not think that we can afford to have these impediments to 
information any longer. Some of these terrorists were living in 
our communities.''
    And there are a lot of other quotes in this article, as a 
matter of fact. The chief of Portland, Maine, ``I understand 
what the FBI is about. It is all about culture and elitism,'' 
and on and on. It is really quite an extraordinary series of 
quotations from people who are frustrated in working with the 
FBI, and one of them happens now to be the police chief in Ann 
Arbor, Chief Oates, who I have talked to, who used to be with 
the New York Police Department, who had a lot of work 
assignments with the FBI and just was totally frustrated in 
terms of working out joint cooperative ventures, getting 
information, getting intelligence, which is important, to local 
police. This is simply not shared.
    Now, this may be a matter of culture. It may be a matter of 
procedures being different. It may be bureaucracy. It may be--I 
am not sure what all the reasons for it are, but it obviously 
has been going on a long time. Again, according to this 
article, it is, ``Since the days of J. Edgar Hoover, State and 
local officials have complained that the Bureau is high-handed 
with its local counterparts and that the FBI looks for any 
excuse not to share even the most innocuous intelligence 
information.''
    So, Chief, if you have not already been asked about this, 
let me ask you, is it still true? Are there any improvements 
you see? Is there anything we can do to change that culture or 
whatever it is?
    Mr. Berger. I have seen drastic improvements in the area 
that the director himself, Director Mueller, has been very 
open. He came to Toronto for our international conference and 
was very genuinely, not only embarrassed, but open to any 
suggestions that we, the International, or any law enforcement 
had.
    As you know, he has empaneled a committee of local law 
enforcement, State, Federal people to basically advise him on a 
one-to-one basis. I think that is very, very important. I 
believe his heart is open. I do not believe this is just 
mirrors. I truly believe that he wants to improve this. I know 
there are some pending changes to actually put a liaison person 
specifically there. He or she would communicate with law 
enforcement on a need-be basis.
    Let me just say, I have been in law enforcement 28 years. I 
was the commander of the Miami homicide unit for years. And I 
can tell you, there has always been this culture in law 
enforcement, a need to know. Homicide did not talk to robbery. 
Robbery did not talk to burglary. It is not just a Federal 
problem. It has been a law enforcement problem, and I wish I 
could say where we could trace it back to, but there has always 
been this need to know. Certainly with national security, this 
ups the stakes. We certainly do not want to put critical 
information for distribution.
    What we talked about with the Bureau that we were very 
frustrated with was the fact that, initially after September 
11, there was a tremendous surgence of FBI agents going to the 
communities, securing evidence--as you know, the residents 
were, many of them in Florida and throughout the country. And 
in this urgency to get the job done, what was happening is news 
media would see the Bureau at certain locations and then mayors 
and citizens would talk to their police chief and say, ``Wait a 
second, why is the FBI in my neighborhood, in my building, in 
my condominium?'' And, of course, the response is, ``I have no 
idea,'' and that is very frustrating.
    That is what we told our special agent in charge of the 
Miami office, our U.S. Attorney down in the greater Florida 
area. That is what my members told their special agents in 
charge of the various offices. Just give us the courtesy of 
telling us that we are going to be in your community and we are 
effecting, whether it is a search warrant, whether an arrest, 
just so that we know. We do not need to know in many cases the 
particulars for that arrest. Certainly, they have the people 
power to take care of that particular incident or search 
warrant or whatever that needs.
    But that is that frustration, and I saw the frustration 
from the local special agent in charge, Hector Fitzgeros, 
because, basically, after September 11, he was doing truly a 
million things, trying to get the job done as quickly as he 
could and the people that work for him, and many times, those 
things occur where you just do not talk to people and it is 
wrong. It is wrong because of the pressures that each one of us 
have in our individual communities, who we have to report to, 
and it is just basic information.
    I think there is going to be--I know there is going to be a 
tremendous change in that attitude to at least share initial 
information, and then later on, as we have talked about these 
security clearances, maybe more specific information regarding 
operatives in individual communities.
    Senator Levin. By the way, I have talked to Director 
Mueller about this issue shortly after he was sworn in, because 
I was so bothered by it, and even talked to local law 
enforcement and they feel so strongly about this disconnect 
that I felt that I just had to really meet with him on this 
subject, which I did. And he, again, as you pointed out, I 
think, indicated a determination to change that culture and to 
improve those relationships and it is very important that 
happen.
    I do not know how many tips came into the FBI following the 
attack on the Trade Center and the Pentagon, but it is a huge 
number. I think it was over 100,000, although I----
    Mr. Berger. Over 100,000.
    Senator Levin. There is no way, I do not think, that the 
FBI can possibly even screen these. I do not think they are 
large enough. I think they have to rely on local law 
enforcement to do it. Are they relying on local law enforcement 
to screen, in some preliminary way, at least, the 100,000 or so 
tips which have come in since the September 11 attacks, do you 
know?
    Mr. Berger. The answer to that is yes, but I cannot speak 
nationwide. I know in Florida, that has already started. We 
have developed regions, regions based on county boundaries. 
Those regions are actually effecting the following up of many 
of these leads that are occurring.
    The one thing we do not want, though, is to be given tasks 
that are just not important, just this is a preliminary task, 
and I have echoed that to powers to be. It would be insulting 
to use local law enforcement just to go ahead and follow up 
these non-important things.
    Senator Levin. Does the same problem exist in terms of lack 
of sharing of information with other Federal agencies, or has 
it been true with the Border Patrol, DEA, Customs, U.S. 
Attorneys, or Coast Guard? Is this true generally or has it 
been sort of something which is more identified with the FBI?
    Mr. Berger. I certainly do not feel qualified, only because 
all my experience has been at the local level. But having dealt 
with task forces, having dealt with the HIDA programs down in 
South Florida, certainly, there are communications problems 
even between Federal agencies that work with themselves on a 
regular basis, again, this kind of concept of ``need to know.''
    We need to work harder. I think that is something, as you 
mentioned, that is a culture. It is ingrained. It is ego. A lot 
of it is ego, and that is at all levels.
    Senator Levin. On these task forces, these joint task 
forces, are they always chaired by a Federal official?
    Mr. Berger. The answer to that is no.
    Senator Levin. Are they rotating chairs? Sometimes it is a 
State or local official that chairs it?
    Mr. Berger. Down in South Florida, there happens to be a 
Sheriff of Broward County, but there are two co-chairs, a State 
officer and a U.S. Attorney is the other co-chair.
    Senator Levin. I am glad to hear that. I think it is 
useful. I do not know that has been true, generally, until 
recently, but if it has not, I am glad to see the change and I 
hope that is true across the board, because the local 
contribution here is major and we have got to find a way to 
coordinate better and that is what Governor Ridge's challenge 
is, in part.
    Just one other question. I do not know if any of you might 
have information on this, and that has to do with the fact that 
we have, in the private sector, companies that specialize in 
responses to disasters, including pollution, biological 
problems, and spills. Are any of you in a position to know 
whether or not we have got good coordination between our local, 
Federal agencies and the private sector which has been focused 
on these issues? We talk about biological or chemical attacks. 
There are spill pollution problems which have been focused on 
for a long time which have a lot of similarities. They are not 
exactly the same, but a lot of similarities. Would any of you 
be in a position to know that or have you commented on that?
    [No response.]
    Senator Levin. OK. That is something, then, that, Mr. 
Chairman, I will take up with the member of our first panel 
that I was not able to come here to attend, and I want to thank 
you, Mr. Chairman, and to thank our panel.
    Senator Cleland. Thank you very much.
    Chief Berger, I would like to follow up here. Mayor Morial 
just sat right there in that seat less than an hour ago----
    Mr. Berger. It is still warm. [Laughter.]
    Senator Cleland. He said, we must not only think about 
response, and we had been talking about FEMA, and I think 
Senator Lieberman and Senator Specter have legislation, which I 
think I am actually a cosponsor of, to maybe create an Agency 
of Homeland Defense with a budget and people and so forth and 
part of the core of that is the response aspect of FEMA.
    And the mayor said, we must not only think about response, 
we must think about prevention, and I was just sitting here 
thinking, he has got the Super Bowl, a big target, all the 
things that terrorists like, one particular place where a lot 
of people are going to be. How do you work on prevention? It 
seems to me it was the same challenge of September 11, not only 
response, but intelligence to pick up the threat or threats 
that might come your way.
    In other words, if you are the Chief of Police in New 
Orleans, it seems to me that one would love to have any 
credible intelligence the FBI or any other agency of the 
Federal Government might have certainly passed on to him so he 
can evaluate it and take some action.
    I do not see how we can prevent a terrorist attack unless 
we have better intelligence. If you do not have better 
communication, State and local to Federal, particularly in the 
FBI's case, they are the Nation's CIA. Outside the borders of 
the United States, it is the CIA, and that is a whole other 
kettle of fish, whether the CIA and the FBI properly 
coordinate. But if you are chief of police anywhere in America 
and you have got a target, or if you are the General here and 
you are sitting on miles of untended border and nuclear 
installations and so forth, you have got to be looking for all 
the battlefield intelligence that the FBI, particularly, could 
provide you so you can put your people on alert and check out 
some things.
    So in terms of prevention, I think the key to that is 
intelligence, but if you are not sharing information, I do not 
know how we can help our chiefs of police prevent things. Is 
that a view that you support?
    Mr. Berger. I have a lot of experience in that. When Pope 
John Paul, remember, he came to America--he has come a couple 
of times, but the one he came down to South Florida, I was 
responsible for his security when he had his very large mass. I 
have been involved with Super Bowls of the past when they were 
held at the Orange Bowl. That is how long ago it was.
    I can tell you, in specific events, I think pre-planning, 
we do a very good job. I have never seen Secret Service nor the 
Bureau or anyone that may have intelligence information ever 
share it. Of course, I would not know if it was not there, but 
on those specific events, I have even run Grand Prix, those, we 
have many pre-meetings before. Many things are worked out. 
Escape routes are worked out. We can isolate the event and plan 
specifically for it.
    I was just in Salt Lake City. As you know, the Winter 
Olympics will be there. The pre-planning started 2 years ago. 
Those things, I think we do a very good job in coordinating 
that. Certainly the World Trade Center was something that 
probably, without intelligence to talk about, we could have 
really never planned for something to that effect.
    But I assure you that security at this upcoming Super Bowl 
or any major event, as the Olympics will follow that, shortly 
after, will be premium. I am convinced of that, that it will be 
a very safe place for Americans to visit and a very peaceful 
venue during those situations. But that is because, like I 
said, we know we have the purpose, the intent has been 
designed, and that is our mission, and we do very good at 
creating security for missions.
    Senator Cleland. Thank you. That is good to know. Mr. 
Tinkham, thank you very much for being here.
    Mr. Tinkham. Yes, sir.
    Senator Cleland. Your description of your ``security 
situation'' is quite challenging, shall we say.
    Mr. Tinkham. Well, we here with a military background, 
Senator, as you know, would note that when you try to guard 
everything, you guard nothing, and so we must rely on 
intelligence. Intelligence is one of those things that we can 
gather perhaps bits and pieces of what is going on inside our 
border, but we need to turn to the Federal Government for 
anything outside the border and put the pieces together.
    I know that while, as far as we know, there has been no 
specific intelligence threats in Maine, it would be very 
comforting to hear that every day. In Vietnam when we put 
patrols out or we put out outposts, they would report back 
periodically that things were negative. It was heartening to 
know that at least they were still out there watching. That 
would be helpful, if our intelligence gathering agencies could 
at least on a daily basis say, hello, and by the way, we have 
not forgotten you up there. We have checked and there is 
currently no specific threat to Maine. I think our people would 
appreciate that, more to counter that fear in their homes.
    But as far as law enforcement is concerned, I have seen 
barriers fall in the last 3 months that I thought would never 
fall. I mean, the cooperation between many departments in both 
State and Federal Government and between the various levels of 
government has been much greater than it has ever been in my 
experience since the events of September 11.
    Senator Cleland. Thank you. That is good to know.
    Dr. Caldwell, talk to me a little bit about the CDC. You 
are there at the bottom of the threat, in effect.
    Dr. Caldwell. Or the top.
    Senator Cleland. That is right. That is one way to look at 
it. You are closest to the problem and the CDC is, in effect, 
the B-52s on call up there.
    Dr. Caldwell. See, we look at the CDC as the foundation and 
we look at ourselves as the eyes and the ears. It is the 
patients who walk into doctors' offices or present to school 
clinic and school nurses. There may be some unusual symptoms or 
questions or anxiety or fears, and then they call the local 
health department. The local health department then, if they 
are lucky, can quickly go to their Internet site and look at 
the Health Alert Network and immediately transmit some 
information, answer a question, call somebody up from the CDC 
to ask some advice.
    So I think we are, in some ways, an extension of the CDC, 
so we get frustrated at the local level when we see the CDC 
having struggles with sister Federal agencies, because at the 
local level, we try not to replicate those problems. And I 
think that you will find a diverse number of good and not-so-
good relationships at the local level.
    In Dutchess County, I could say we are very fortunate with 
the leadership of my county executive. He has been able to put 
in place a position of an epidemiologist in Dutchess County, 
New York, population of 280,000. There are a number of States 
that do not have an epidemiologist. So on January 1, I will 
have a bioterrorism coordinator.
    But even luckier than that was 2 years ago, my county 
executive recognized with West Nile virus we needed a 
biostatistician. We never had one before. We used that person 
on September 11. We reassigned her with this capacity and said, 
you are now our bioterrorism coordinator. When this other 
position opens, you can go into that.
    So what we need to do is try to replicate that, maybe not 
at all 3,000 local health departments, but at enough of them so 
that they are all covered, and we need that at the local level 
because if you just, as I say, give us money or give us 
guidelines and don't provide us with the staff capacity to be 
able to know what to do with them, that become a real problem.
    One more example. Let us say there is a problem in Dutchess 
County or in New York City, since we have about 5,000 or more 
commuters to and from New York City each day. Somebody comes in 
with some unexplained symptoms and suddenly it turns out to be 
smallpox or something horrible like that. Well, I have 
confidence that the National Pharmaceutical Stockpile, these 
pushpacks will be activated. They will get there in 7 hours. 
But we are going to have to know what to do with them. ``Dr. 
Caldwell, the pushpacks are here. Where do we put them?''
    And it is not just me. It is departments of emergency 
planning--fire and police. But I think for now, we have really 
emerged as equals and I want to thank you for putting us on 
this panel because I think, before, people did not recognize 
the value of local public health. So the CDC has the beginnings 
of a foundation. We are not starting from scratch.
    Let me tell you one final comment about Health Alert 
Network funding in the State of New York. We got a few hundred 
thousand dollars, the State of New York, and in the law, it was 
crafted that some of it must go to the local level. Well, I 
just told you 55 out of 58 counties got nothing. But I can 
understand the States' predicament. They need this much money 
and they got this much.
    So they said, if we take this much and give it to all of 
the counties, you will basically have enough to print 
pamphlets. So let us take this amount and try to create a model 
in one or two counties. Let us get the State up to speed, and 
that is what they have done. But now we need to replicate that 
across all of New York State and across the country so that we 
do not leave any jurisdiction behind.
    So we have a lot of work to do, and one more quote from 
Franklin Roosevelt, he said, ``Never before have we had so 
little time to do so much,'' and that is, I think, the way we 
all feel. We all feel a little behind in public health, but we 
know we are on the right course, and with your assistance and 
help, we know we are going to get there, not in a 5- or 10-year 
plan, but in a 5-month plan.
    Senator Cleland. It is interesting that you just said that, 
because 3 years ago, a private group that supports the CDC in 
Atlanta came to me and they said, ``We have got a 10-year 
plan.'' This is 3 years ago. And they said, ``But we really 
need to make it a 5-year plan because the CDC is vulnerable to 
a terrorist attack, it is spread out in 22 different offices, 
some of them date back to World War II, we have got rain coming 
through the roof on million-dollar computers and on world class 
scientists. This is an untenable situation.''
    So I went to work on the problem and we got money each 
year. But then all of a sudden comes September 11. The point 
is, we cannot wait 10 years to upgrade the CDC. We cannot wait 
5 years. So I have called for a Manhattan Project to, in 36 
months, dramatically upgrade the CDC in every sense of the 
word--facilities, labs, communication capability, and security.
    So I think we are on the right track here. You are right. I 
do not think we have a whole lot of time to wait.
    Dr. Caldwell. And strengthening the CDC will strengthen the 
local public health department, but you cannot leave us out 
completely, out of the funding stream. What we have seen with 
previous Health Alert Network funding, so much has been 
siphoned off at the Federal and State level, just a trickle has 
gotten to us. But that, as I said, is just because of the 
amount that was given. I think they made the best choices that 
they had available, but now they need to do it all.
    Senator Cleland. Mr. Crouse, any final comment as we wrap 
up the hearing here?
    Mr. Crouse. No, sir. Thank you.
    Senator Cleland. Dr. Caldwell, Senator Lieberman has asked 
me to ask a question. You identified the need to integrate 
public health experts and their activities with that of other 
emergency responders. How can that best be done, and is there 
an appropriate Federal role?
    Dr. Caldwell. We have planning going on at the local level 
all the time. I think that if local public health agencies are 
not being included in those plannings, that they need to hear 
the message that they should be included. I believe that they 
are, and if they were not before, they are being included now.
    But more importantly, I mentioned to you that we need 
technical support, not just money but technical support. I find 
it valuable as we go through our planning committees to have 
somebody from the FBI and the CDC sitting at those planning 
committees with us from time to time to help ensure that we 
have a standardization, this protocol development, I think, 
that Mayor Morial was speaking of earlier, so that every 
community will respond in a similar way based upon its 
population. But I think that we need to hear redundant messages 
going back and forth from the local up to the Feds and then 
from the Feds down to the locals.
    Set a good example. Let us see the Federal Government have 
interagency collaboration, and just like kids who see their 
parents do bad things tend to follow those behaviors, maybe if 
we see them do good things, it will trickle down to us. But let 
us see, set by example, have some of those Federal agencies get 
together, sitting at our local table helping us plan locally.
    So for the Dutchess County Government's comprehensive 
emergency response plan, we can have representatives from the 
Department of Justice, the CDC, etc., with us, and I say not at 
every meeting, but at least to have a presence so we are not 
handing those business cards out the day that that disaster is 
there.
    Part of the problem, as well, is people do rotate over 
time, positions. These personal relationships, if they are 
there, as I think that Mayor Morial said before, they work. If 
they are not there, they do not work. We should not have to 
rely solely on personal relationships for our Nation's defense. 
I need as Commissioner of Health of Dutchess County to have a 
list of all the positions I need to know and who is in those 
positions and make sure they have my business card, the local 
FBI director, the regional Health and Human Services director, 
etc.
    And I think that is a beginning for us to know who we 
should get to know. Then it is my responsibility if I do not. 
But if we all have that list, I am not just sort of sitting 
around saying, gee, I think that would be a good person to 
know, or maybe I will call up my colleague in Orange, County, 
New York, see if they know their person, etc.
    So we need guidelines, and I think they are coming around, 
but we need to hear them over and over again. It has to become 
a natural way of doing business and we are a long way from 
that.
    Senator Cleland. Thank you very much. That is one of the 
reasons we are having these series of hearings about 
coordination, cooperation, and communication of Federal 
agencies along with our local entities.
    We thank you all very much for your patience and for coming 
today to testify. The record will remain open for a week after 
the close of the hearing.
    The hearing is adjourned.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    I am pleased to be here today as we discuss the role of state and 
local governments in homeland security.
    The events of the past 3 months have illustrated how important it 
is for Federal, state and local governments to work together in 
responding to terrorist attacks.
    On September 11, our country responded to one of the worst 
terrorist attacks in our nation's history. Within a month, we were 
attacked again--this time by someone sending anthrax through the mail.
    Since that time, this Committee has held several hearings on 
security, including improving the security of our ports and airports, 
combating bioterrorism, and protecting our mail.
    Today we are looking at the local role in homeland security. State 
and local governments have tremendous responsibility in protecting 
their citizens.
    Many times, their employees--the police officers, firemen and 
women, and other emergency personnel--are the first to respond to a 
disaster.
    In light of recent events, many of our state and local governments, 
along with the Federal Government, are now taking a second look at the 
disaster plans currently in place to handle a terrorist attack or 
disaster.
    Many communities and states will need to make some changes so they 
can adequately protect their citizens. The Federal Government will also 
be making some changes, particularly through the new office of homeland 
security.
    Several of the witnesses we will hear from today will discuss ways 
the government can better respond to attacks, including hiring more 
personnel, providing better communications and coordination, and 
providing more funding for various programs.
    As we all work to strengthen our security, it is important to 
remember that each level of government has an important role to play, 
and that we do need to work together to make sure we get the job done.
    I look forward to hearing from our witnesses today, and I thank 
them for being here today.
    Thank you, Mr. Chairman.
    [GRAPHIC] [TIFF OMITTED] T8046.001
    
    [GRAPHIC] [TIFF OMITTED] T8046.002
    
    [GRAPHIC] [TIFF OMITTED] T8046.003
    
    [GRAPHIC] [TIFF OMITTED] T8046.004
    
    [GRAPHIC] [TIFF OMITTED] T8046.005
    
    [GRAPHIC] [TIFF OMITTED] T8046.006
    
    [GRAPHIC] [TIFF OMITTED] T8046.007
    
    [GRAPHIC] [TIFF OMITTED] T8046.008
    
    [GRAPHIC] [TIFF OMITTED] T8046.009
    
    [GRAPHIC] [TIFF OMITTED] T8046.010
    
    [GRAPHIC] [TIFF OMITTED] T8046.011
    
    [GRAPHIC] [TIFF OMITTED] T8046.012
    
    [GRAPHIC] [TIFF OMITTED] T8046.013
    
    [GRAPHIC] [TIFF OMITTED] T8046.014
    
    [GRAPHIC] [TIFF OMITTED] T8046.015
    
    [GRAPHIC] [TIFF OMITTED] T8046.016
    
    [GRAPHIC] [TIFF OMITTED] T8046.017
    
    [GRAPHIC] [TIFF OMITTED] T8046.018
    
    [GRAPHIC] [TIFF OMITTED] T8046.019
    
    [GRAPHIC] [TIFF OMITTED] T8046.020
    
    [GRAPHIC] [TIFF OMITTED] T8046.021
    
    [GRAPHIC] [TIFF OMITTED] T8046.022
    
    [GRAPHIC] [TIFF OMITTED] T8046.023
    
    [GRAPHIC] [TIFF OMITTED] T8046.024
    
    [GRAPHIC] [TIFF OMITTED] T8046.025
    
    [GRAPHIC] [TIFF OMITTED] T8046.026
    
    [GRAPHIC] [TIFF OMITTED] T8046.027
    
    [GRAPHIC] [TIFF OMITTED] T8046.028
    
    [GRAPHIC] [TIFF OMITTED] T8046.029
    
    [GRAPHIC] [TIFF OMITTED] T8046.030
    
    [GRAPHIC] [TIFF OMITTED] T8046.031
    
    [GRAPHIC] [TIFF OMITTED] T8046.032
    
    [GRAPHIC] [TIFF OMITTED] T8046.033
    
    [GRAPHIC] [TIFF OMITTED] T8046.034
    
    [GRAPHIC] [TIFF OMITTED] T8046.035
    
    [GRAPHIC] [TIFF OMITTED] T8046.036
    
    [GRAPHIC] [TIFF OMITTED] T8046.037
    
    [GRAPHIC] [TIFF OMITTED] T8046.038
    
    [GRAPHIC] [TIFF OMITTED] T8046.039
    
    [GRAPHIC] [TIFF OMITTED] T8046.040
    
    [GRAPHIC] [TIFF OMITTED] T8046.041
    
    [GRAPHIC] [TIFF OMITTED] T8046.042
    
    [GRAPHIC] [TIFF OMITTED] T8046.043
    
    [GRAPHIC] [TIFF OMITTED] T8046.044
    
    [GRAPHIC] [TIFF OMITTED] T8046.045
    
    [GRAPHIC] [TIFF OMITTED] T8046.046
    
    [GRAPHIC] [TIFF OMITTED] T8046.047
    
    [GRAPHIC] [TIFF OMITTED] T8046.048
    
    [GRAPHIC] [TIFF OMITTED] T8046.049
    
    [GRAPHIC] [TIFF OMITTED] T8046.050
    
    [GRAPHIC] [TIFF OMITTED] T8046.051
    
    [GRAPHIC] [TIFF OMITTED] T8046.052
    
    [GRAPHIC] [TIFF OMITTED] T8046.053
    
    [GRAPHIC] [TIFF OMITTED] T8046.054
    
    [GRAPHIC] [TIFF OMITTED] T8046.055
    
    [GRAPHIC] [TIFF OMITTED] T8046.056
    
    [GRAPHIC] [TIFF OMITTED] T8046.057
    
    [GRAPHIC] [TIFF OMITTED] T8046.058
    
    [GRAPHIC] [TIFF OMITTED] T8046.059
    
    [GRAPHIC] [TIFF OMITTED] T8046.060
    
    [GRAPHIC] [TIFF OMITTED] T8046.061
    
    [GRAPHIC] [TIFF OMITTED] T8046.062
    
    [GRAPHIC] [TIFF OMITTED] T8046.063
    
    [GRAPHIC] [TIFF OMITTED] T8046.064
    
    [GRAPHIC] [TIFF OMITTED] T8046.065
    
    [GRAPHIC] [TIFF OMITTED] T8046.066
    
    [GRAPHIC] [TIFF OMITTED] T8046.067
    
    [GRAPHIC] [TIFF OMITTED] T8046.068
    
    [GRAPHIC] [TIFF OMITTED] T8046.069
    
    [GRAPHIC] [TIFF OMITTED] T8046.070
    
    [GRAPHIC] [TIFF OMITTED] T8046.071
    
    [GRAPHIC] [TIFF OMITTED] T8046.072
    
    [GRAPHIC] [TIFF OMITTED] T8046.073
    
    [GRAPHIC] [TIFF OMITTED] T8046.074
    
    [GRAPHIC] [TIFF OMITTED] T8046.075
    
    [GRAPHIC] [TIFF OMITTED] T8046.076
    
    [GRAPHIC] [TIFF OMITTED] T8046.077
    
    [GRAPHIC] [TIFF OMITTED] T8046.078
    
    [GRAPHIC] [TIFF OMITTED] T8046.079
    
    [GRAPHIC] [TIFF OMITTED] T8046.080
    
    [GRAPHIC] [TIFF OMITTED] T8046.081
    
    [GRAPHIC] [TIFF OMITTED] T8046.082
    
    [GRAPHIC] [TIFF OMITTED] T8046.083
    
    [GRAPHIC] [TIFF OMITTED] T8046.084
    
    [GRAPHIC] [TIFF OMITTED] T8046.085
    
    [GRAPHIC] [TIFF OMITTED] T8046.086
    
    [GRAPHIC] [TIFF OMITTED] T8046.087
    
    [GRAPHIC] [TIFF OMITTED] T8046.088
    
    [GRAPHIC] [TIFF OMITTED] T8046.089
    
    [GRAPHIC] [TIFF OMITTED] T8046.090
    
    [GRAPHIC] [TIFF OMITTED] T8046.091
    
    [GRAPHIC] [TIFF OMITTED] T8046.092
    
    [GRAPHIC] [TIFF OMITTED] T8046.093
    
    [GRAPHIC] [TIFF OMITTED] T8046.094
    
    [GRAPHIC] [TIFF OMITTED] T8046.095
    
    [GRAPHIC] [TIFF OMITTED] T8046.096
    
    [GRAPHIC] [TIFF OMITTED] T8046.097
    
    [GRAPHIC] [TIFF OMITTED] T8046.098
    
    [GRAPHIC] [TIFF OMITTED] T8046.099
    
    [GRAPHIC] [TIFF OMITTED] T8046.100
    
    [GRAPHIC] [TIFF OMITTED] T8046.101
    
    [GRAPHIC] [TIFF OMITTED] T8046.102
    
    [GRAPHIC] [TIFF OMITTED] T8046.103
    
    [GRAPHIC] [TIFF OMITTED] T8046.104
    
    [GRAPHIC] [TIFF OMITTED] T8046.105
    
    [GRAPHIC] [TIFF OMITTED] T8046.106
    
    [GRAPHIC] [TIFF OMITTED] T8046.107
    
    [GRAPHIC] [TIFF OMITTED] T8046.108
    
    [GRAPHIC] [TIFF OMITTED] T8046.109
    
    [GRAPHIC] [TIFF OMITTED] T8046.110
    
                                   - 

</pre></body></html>
